<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                         THURSDAY, MAY 1, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby presiding.
    Present: Senators Mikulski and Shelby.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    Administrator Bolden, as one of the most publicly 
recognized agencies in the Federal Government, NASA serves as 
an inspiration to many across the globe. For more than 50 
years, NASA has pushed the boundaries of human knowledge 
through exploration and scientific discovery.
    The cutting-edge missions and projects historically 
undertaken by NASA are technologically challenging and risky. A 
true commitment of resources, coupled with strong oversight, is 
required for these efforts to stay on schedule and on budget.
    In spite of this, NASA's 2015 budget proposal is $186 
million below the current enacted level and contains drastic 
inequities with respect to program oversight.
    This calls into question the administration's level of 
commitment to a forward-thinking, inspirational space program, 
I believe. For example, while the Space Launch System, SLS, is 
subject to strict and necessary oversight, severe budget cuts 
will ensure delays and unnecessary cost growth.
    At the same time, NASA has taken a hands-off approach with 
the commercial crew and cargo programs, choosing instead to 
commit seemingly unlimited Federal resources with little to no 
transparency or accountability. Neither of these approaches, in 
my view, is acceptable.
    And while your statement depicts SLS as critical to NASA's 
exploration goals, the requested budget does not reflect that 
commitment. Instead, the budget request maintains a resource 
level that underfunds SLS and inserts unnecessary budgetary and 
schedule risks into the future of human exploration.
    For the first time in recent memory, NASA has a strategic 
plan for space exploration that will utilize one platform to 
meet the needs of multiple exploration missions well into the 
future. That platform is SLS.
    Historically, NASA has planned a single mission and set out 
to build a program around that mission. Not so with SLS. Once 
SLS is operational, NASA will be able to provide critical 
heavy-lift capabilities to short-, medium-, and long-range 
missions. In short, SLS will provide NASA a versatile platform 
to conduct a variety of missions.
    SLS will allow NASA to break free from its decades-long 
tether to low-Earth orbit. It will enable NASA to go to an 
asteroid and achieve the ultimate goal of sending humans to 
Mars.
    In addition, SLS will create significant opportunities for 
planetary robotic science missions and space-based astronomy. 
It is the vehicle that will make NASA's goals for exploration 
possible.
    None of this will be possible if we shortchange this 
effort.
    My concerns about the budget are not focused solely on SLS. 
They also extend to NASA's commercial launch program. And while 
the commercial cargo program eventually succeeded in delivering 
cargo to the International Space Station, it came at a 
significant cost. SpaceX has flown three successful missions to 
the International Space Station, and Orbital has flown one. 
These accomplishments should be celebrated.
    Yet it is worth noting that these missions could not have 
been achieved without the investment of nearly $800 million 
taxpayer dollars. NASA paid these companies in spite of delayed 
milestones, shifting completion dates, and a final delivery 
schedule that was 2.5 years behind. All the while, NASA has 
little insight regarding the delays and even less about the 
investments made by the companies.
    Today, NASA is using the same flawed model to advance the 
commercial crew program. Once again, NASA is spending billions 
to help private companies develop a launch vehicle, but has 
little to no access to the books and records associated with 
this investment. None of these companies will publicly disclose 
investment in the so-called public-private partnership.
    The question is, is the Federal Government a majority 
investor or a minority investor? The fact is, there is no 
transparency into the true total investment in these vehicles.
    Notwithstanding the total Federal investment, I am most 
troubled that these programs lack an oversight component. Much 
like the cargo program, we are beginning to see similar issues 
surface with the crew program.
    These issues are not grounded in funding shortfalls, but 
rather in the capability of these companies to meet their own 
proposed milestones and deadlines.
    Moreover, NASA ceded its authority to investigate these 
problems when it signed the Space Act Agreements that fund 
these companies.
    I fully recognize that these are not simple efforts. They 
are technically difficult and extremely risky. That said, the 
lack of transparency, coupled with the continued demand for 
additional taxpayer resources to fund ``a commercial venture,'' 
is difficult to rationalize.
    While new and innovative ideas often require significant 
investment and involve significant risk, I believe they cannot 
come at the expense of other priority programs. They should 
never be guaranteed funding with little or no oversight.
    I plan to work with Senator Mikulski to make NASA's budget 
reflect its priorities and to address the inequities in 
accountability that are emblematic of this request.
    General, we welcome you today. We are always glad to hear 
from you and look forward to the area of questioning. Thank 
you.

            SUMMARY STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Mr. Bolden. Senator, thank you very much. I want to thank 
you and Madam Chairperson, Chairwoman Senator Mikulski, and all 
the members of this subcommittee for the final fiscal year 2014 
appropriations. We are greatly indebted to the hard work that 
you and Senator Mikulski put into leading the team to come up 
with the final number.

                    FISCAL YEAR 2015 BUDGET REQUEST

    That budget is allowing us to make substantial progress on 
our shared priorities, and our fiscal year 2015 request builds 
on that appropriation. The President's $17.5 billion budget 
request affirms the bipartisan strategic exploration plan 
agreed to with Congress back in 2010, and it keeps NASA on the 
steady path we have been following, a stepping stone approach 
to meet the President's challenge of sending humans to Mars in 
the 2030s, and you referred to that in your opening statement.
    You should have a copy of this in front of you, but I am 
going to refer to this chart off and on over the course of my 
testimony today. But for the benefit of others who are here, 
this is essentially a pictorial of the roadmap when I refer to 
the stepping stone approach that we are using to get to Mars. 
You have already commented on the critical importance of SLS on 
that, and we can talk about that as I go.
    The International Space Station remains our springboard to 
the exploration of deep space and Mars. Our commitment to 
extend the ISS until at least 2024 ensures we will have this 
unique orbiting outpost for at least another decade. This means 
an expanded market for private space companies; more 
groundbreaking research and science discovery in microgravity; 
and opportunities to live, work, and learn in space over longer 
periods of time.
    Later this year, we will see Exploration Flight Test 1, or 
EFT-1, as we call it, of Orion. NASA is pressing forward with 
the development of the Space Launch System, or SLS, and Orion, 
preparing for an uncrewed mission of the two together in fiscal 
year 2018.
    The budget also supports the administration's commitment 
that NASA be a catalyst for the growth of a vibrant American 
commercial space industry. Already, as you pointed out, two 
companies, SpaceX and Orbital Sciences, are making regular 
cargo deliveries to the International Space Station.
    Later this year, we will move beyond commercial cargo and 
award contracts to American companies to send astronauts to the 
station from American soil and end our sole reliance on Russia.
    If Congress fully funds our fiscal year 2015 request, we 
believe we can do this by the end of 2017.
    Unfortunately, due to funding levels provided for 
commercial crew for the past few years, NASA has had to extend 
our current contract with the Russians and purchase more seats 
on the Soyuz spacecraft. Instead of investing millions of 
dollars into the U.S. economy to support American jobs, we will 
be spending that money in Russia.
    While I appreciate all of the funding this subcommittee has 
provided in recent years, I ask that you fully fund our 2015 
request for this critical priority. Budgets really are about 
choices, and the choice here is between fully funding the 
request to bring space launches back to American soil or 
continuing to send millions to the Russians. It is really that 
simple.
    In addition to continuing ISS research, strengthening 
partnerships with commercial and international partners and 
building the next-generation heavy-lift rocket and crew capsule 
to take our astronauts farther into space than ever before, our 
steppingstone approach includes a plan to robotically capture a 
small near-Earth asteroid and redirect it safely to a stable 
orbit in the Earth-Moon system, which we refer to as the 
proving ground on this chart, where astronauts can visit and 
explore it.
    Our asteroid redirect mission will help us deliver 
technologies, including Solar Electric Propulsion needed for 
future deep space missions to Mars. We also enhance detection 
and characterization of Near Earth Objects (NEO) and improve 
our understanding of asteroid threats to planet Earth.
    NASA's 2015 request continues support for science missions, 
heading toward destinations such as Mars, Jupiter, and Pluto. 
It enables NASA to continue making critical observations of 
Earth and developing applications to directly benefit our 
Nation and the world. It maintains steady progress on the James 
Webb Space Telescope toward its 2018 launch.
    The budget request also supports missions currently in 
formulation, such as Europa, and the mission to achieve the 
science objectives of WFIRST, as laid out in the Astrophysics 
decadal survey. Our aeronautics program will continue to focus 
on substantially reducing fuel consumption, emissions, and 
noise to help make the Next Generation Air Transportation 
System, or NextGen, a reality.
    All of NASA's investments help drive technology and 
innovation, spur economic activity, and create jobs. That is 
why the President's Opportunity, Growth, and Security 
Initiative, with congressional approval, will provide NASA 
nearly $900 million in additional funding in fiscal year 2015 
to focus on specific areas where we can advance our priorities.
    In summary, the fiscal year 2015 budget request advances 
NASA's strategic plan for the future, will continue building 
U.S. preeminence in science and technology, improve life on 
Earth, and protect our home planet while creating good jobs and 
strengthening the American economy.

                          PREPARED STATEMENTS

    Senator Shelby, I really want to thank you again, you and 
Senator Mikulski, for the leadership you have displayed with 
this subcommittee and for the very good funding that we 
received in the fiscal year 2014 appropriations. I look forward 
to continuing to work with you and being able to be as happy 
about funding in the future. So I will be happy to respond to 
any questions you may have now.
    [The statements follow:]
           Prepared Statement of Hon. Charles F. Bolden, Jr.
    Madam Chairwoman and members of the subcommittee, I am pleased to 
have this opportunity to discuss NASA's fiscal year 2015 budget 
request. The requested budget of $17.46 billion provides the resources 
NASA needs to pursue the goals and priorities that the Congress and the 
Administration have established for the Agency and will ensure that 
NASA will remain the world's leader in space. A summary of the fiscal 
year 2015 budget request is appended to this statement.
    The President's fiscal year 2015 request supports NASA's continuing 
quest to extend human presence into deep space and on to Mars. NASA 
will continue to perform research aboard the International Space 
Station (ISS), partner with American industry for crew and cargo 
delivery to low Earth orbit (LEO), develop the Space Launch System 
(SLS) and Orion crew vehicle, and test our new capabilities in the 
proving ground of cis-lunar space before sending a human mission to the 
Red Planet. NASA will also continue to develop a rich array of 
commercial and international partnerships as part of its overall 
exploration framework. As we speak, American astronauts aboard the ISS 
are learning the fundamental lessons necessary to safely execute 
extended missions deeper into space. Later this year we will see the 
Exploration Flight Test-1 (EFT-1) of Orion atop a Delta IV Heavy launch 
vehicle. NASA is pressing forward with development of SLS and Orion, 
preparing for a first, uncrewed mission in fiscal year 2018.
    As a critical element in this long-term exploration strategy, as 
well as a source of continuing scientific and material benefits to life 
on Earth, operations in LEO remain among NASA's highest priorities. 
With the Administration's commitment to the extension of ISS operations 
through 2024, NASA looks forward to expanded research opportunities 
with continuing support from our commercial partners for both crew and 
cargo. Two American companies are launching supplies to the ISS from 
U.S. soil. NASA will complete a commercial crew competition this 
summer, and if Congress fully funds our fiscal year 2015 budget 
request, we believe we can stay on track to launch astronauts to the 
ISS from American soil by the end of 2017. This capability is 
critically important to safe/sustained operations, and will end our 
sole reliance on our Russian partners for this service. The requested 
funding is required to meet this critical near-term need.
    Consistent with the NASA Authorization Act of 2010 (Public Law 111-
267) and the National Space Policy, NASA continues to make solid 
progress on the development of SLS and Orion for a series of test 
flights including a compelling mission in the proving ground of cis-
lunar space to redirect a small asteroid into orbit around the Moon, 
and to send U.S. astronauts to rendezvous with and explore this target. 
The proving ground of cis-lunar space also puts the Nation in a 
position from which we may help our commercial and international 
partners robotically explore other destinations on that pathway, such 
as the Moon.
    The Asteroid Redirect Mission (ARM) will enable NASA to test 
powerful Solar Electric Propulsion (SEP) and integrated human/robotic 
vehicle operations in deep-space trajectories. Like the invaluable ISS, 
this mission will provide NASA with critical knowledge, experience and 
technologies for future human exploration missions deeper into space. 
Drawing on our long-term investments across three Mission Directorates, 
the fiscal year 2015 request supports continued core capability 
development and formulation of the integrated mission concept. The 
overall asteroid initiative also includes enhanced Near Earth Object 
(NEO) detection and characterization, which will extend our 
understanding of the NEO threat while providing additional 
opportunities for investigations of asteroids and demonstrations of 
technologies and capabilities.
    NASA's fiscal year 2015 request for Science supports operation of 
the world's premier constellation of spacecraft dedicated to exploring 
Earth, the solar system, and the universe beyond, while we continue to 
develop the next generation of missions in pursuit of our Nation's 
highest priority space and Earth science. The James Webb Space 
Telescope (JWST), NASA's next-generation successor to the Hubble Space 
Telescope (HST), continues on schedule for its 2018 launch. In recent 
months, NASA has completed rigorous testing of the spine of the massive 
telescope and completed the primary mirrors for integration. As we 
announced last year, we have begun work on a large Curiosity-scale 
rover for a 2020 mission to Mars, and the fiscal year 2015 request 
includes funding to continue pre-formulation activities of a potential 
mission to Europa, one of Jupiter's moons believed to harbor a vast 
subsurface ocean. NASA will launch five Earth science missions in 
calendar year 2014, taking advantage of the unique vantage point of 
space to secure new insights into our home planet. The Earth science 
budget will support airborne campaigns to the poles and hurricanes, 
development of advanced sensor technologies, and use of satellite 
observations and data analysis tools to improve natural hazard and 
climate change preparedness.
    With NASA's fiscal year 2015 request, our pioneering Aeronautics 
research program will continue to focus on substantially reducing 
aircraft fuel consumption, emissions, and noise--and help make the Next 
Generation Air Transportation System, or NextGen, a reality. NASA's 
Aeronautics Research Mission Directorate (ARMD) will continue to 
implement the strategic vision for aeronautics that NASA launched last 
year, with a focus on addressing the challenges facing the U.S. 
aviation community--civil and military--in the coming decades.
    In essential support of the Agency's broader mission, the fiscal 
year 2015 request supports an active Space Technology Program to 
advance cutting-edge technologies, providing an on-ramp for new space 
technologies, creating a pipeline that matures them from early-stage 
through flight, and delivering innovative solutions that dramatically 
improve technology capabilities for NASA, the aerospace sector, and the 
Nation. The request supports the sustained investments that NASA must 
make to mature the capabilities we need to achieve the challenging 
goals that the Congress has set for us. By the end of fiscal year 2014, 
NASA will test and deliver two candidate designs for high-power solar 
electric systems for SEP with critical applications for deep-space 
exploration as well as for Earth-orbital activities. By the end of 
calendar year 2015, NASA will have completed seven Space Technology 
missions in 24 months, including demonstration of a deep-space atomic 
clock for advanced navigation, the green propellant demonstration (an 
alternative to highly toxic hydrazine), a solar sail to demonstrate 
propellant-free propulsion, and four small spacecraft missions 
pioneering new technologies. The Space Technology Program is also 
developing high performance systems for decelerating spacecraft at 
Mars, high bandwidth laser communications with the potential to 
transform communication systems for both space exploration and 
commercial use, advanced life support technology, advanced robotics, 
and lightweight composite propellant tanks.
    The program laid out in detail in NASA's fiscal year 2015 request 
continues NASA's implementation of the priorities established for it in 
the bipartisan NASA Authorization Act of 2010. In the current 
constrained budget environment, we have designed a balanced program 
that pursues the Nation's highest priorities in science, exploration, 
and aeronautics; with a critical technology development program to 
develop essential capabilities. The fiscal year 2015 request supports 
the next steps on the way to Mars in a sustainable way. It enables NASA 
to restore an American capability for sending humans to orbit while 
continuing development of a deep-space capability for human space 
flight. This is not an either-or scenario. Each is critically dependent 
on the other. The request supports the Nation's highest priority 
science and technology goals for space. NASA appreciates the strong 
budget support the Agency has received despite a difficult budget 
environment, and we are fully committed to delivering the world's 
leading space program on behalf of the American people.
    NASA is pleased to be included in the President's Opportunity, 
Growth, and Security Initiative (OGSI). Under this initiative, NASA 
would receive nearly $885.5 million in additional funding in fiscal 
year 2015 to focus on specific priorities. This initiative recognizes 
NASA as a critical source of innovation and technology that creates 
opportunity, economic growth, and ultimately security and prosperity. 
NASA's funding under OGSI would focus on priority investment 
opportunities such as an expanded Space Technology Program, reducing 
risk and enhancing competition in the Commercial Crew Program, 
continuing currently operating science missions and accelerating work 
on potential future missions. NASA's portion of OGSI would also enable 
further development work on SLS and Orion, more fully utilize the ISS, 
and support additional Earth science mission development, advanced 
computational fluid dynamics research and increased investment in 
composite materials.
                                science
    With 95 missions in development and actively observing Earth, the 
Sun, the planets, and the universe beyond, NASA remains the world's 
premier space science organization and the critical source of 
information on the home planet. The President's fiscal year 2015 budget 
request for the Science program includes $4,972.0 million, with 
$1,770.3 million for Earth science, $1,280.3 million for Planetary 
Science, $607.3 million for Astrophysics, $645.4 million for the James 
Webb Telescope, and $668.9 million for Heliophysics.
                             earth science
    The President's fiscal year 2015 budget request enables NASA to 
continue to make critical spaceborne measurements of Earth, our home; 
to conduct and fund a comprehensive, competed scientific research 
program to turn those measurements into an understanding of our complex 
planet; and to use the measurements and understanding to develop and 
demonstrate applications that will provide direct benefit to our 
Nation, and indeed all of humanity. Today, there are 17 NASA-developed 
research satellites on orbit, making measurements of more than 60 key 
aspects of our planet's environment. This past February, in 
collaboration with the Japan Aerospace Exploration Agency (JAXA), the 
Global Precipitation Measurement mission (GPM) was launched to provide 
the first-ever, accurate, global maps of rain- and snowfall over the 
globe. During the rest of 2014, NASA will be launching four more Earth 
observing research missions: Orbiting Carbon Observatory-2 (OCO-2) to 
measure global carbon dioxide concentrations with unprecedented 
coverage and accuracy; RapidScat to the ISS, to make measurements of 
ocean wind speed and direction; Cloud-Aerosol Transport System (CATS), 
also to the Space Station, to measure atmospheric aerosols; and, in 
November, the Soil Moisture/Active Passive (SMAP) mission to make 
accurate measurements of soil moisture and freeze-thaw cycling. These 
2014 missions will be followed in 2015-2017 by the SAGE-III 
(Stratospheric Aerosol and Gas Experiment III) instrument to the ISS 
for atmospheric trace gas profile data, including ozone measurements; 
the Gravity Recovery and Climate Experiment (GRACE)-Follow On gravity 
mission with our German partners to measure changes in the Earth's 
gravity field and water storage, such as aquifer level changes; a 
constellation of eight smallsats, called Cyclone Global Navigation 
Satellite System (CYGNSS), to use reflected Global Positioning System 
(GPS) signals to measure conditions in cyclones and hurricanes; an 
instrument called Tropospheric Emissions: Monitoring of Pollution 
(TEMPO) to fly on a commercial geostationary communications satellite, 
to measure air quality over greater North America; and Ice, Cloud, and 
land Elevation Satellite-2 (ICESAT-2), to make precise measurements of 
our planet's rapidly changing ice caps and glaciers.
    NASA is now developing the Pre-Aerosol, Clouds and ocean Ecosystem 
(PACE) ocean color and aerosol continuity mission, and the NASA-Indian 
Space Research Organisation (ISRO) Synthetic Aperture Radar (NI-SAR) 
mission in collaboration with the Indian space agency to measure solid 
earth processes, ice flows, global vegetation, and response to 
disasters and geohazards. The fiscal year 2015 budget request also 
supports NASA to develop missions that will continue key climate data 
series, including a set of solar irradiance, ozone profile, and Earth 
radiation budget instruments, and follow-on capabilities in support of 
U.S. Geological Survey for sustained land imaging following our 
successful launch of Landsat-8 just 1 year ago.
              astrophysics and james webb space telescope
    NASA is making strong progress on JWST, the most powerful space 
telescope in history, and remains on cost and schedule for launch in 
2018. The Webb telescope is the next in a series of astrophysics 
missions, including the venerable, yet still unrivaled, HST and the 
incredibly productive Kepler exoplanet mission, which are 
revolutionizing our understanding of the universe. After launching in 
2018, the Webb telescope will travel one million miles from Earth, 
unfold its sunshield to the size of a tennis court, and keep its 
instruments cooled to a temperature of 370-387 degrees below zero 
Fahrenheit (40-50 Kelvin). The Webb telescope will allow us to observe 
objects even fainter than HST can see, which will allow us to study 
every phase in the history of our universe, ranging from the first 
luminous glow after the Big Bang, to the formation of solar systems 
capable of supporting life on planets like Earth, to the evolution of 
our own solar system. The fiscal year 2015 request will support work to 
continue testing the integrated science instrument module for JWST, 
continue the construction of the spacecraft that will carry the science 
instruments and the telescope, and begin the assembly of the delivered 
mirror segments into the telescope backplane.
    NASA's Astrophysics Program operating missions include the Hubble, 
Chandra, Spitzer, and Kepler telescopes; and other missions that 
together comprise an unrivaled, and in many ways unprecedented resource 
for the study of our universe. NASA is currently working with our 
German partner to identify a path forward for the Stratospheric 
Observatory for Infrared Astronomy (SOFIA), a mission with high annual 
operating costs that cannot be accommodated within the fiscal year 2015 
budget request. In fiscal year 2015, NASA's next two astrophysics 
Explorer missions will continue their development. The Neutron Star 
Interior Composition Explorer (NICER) will probe the interiors of 
neutron stars and determine the laws of physics that govern atomic 
nuclei. NICER will be launched to the ISS in 2016. The Transiting 
Exoplanet Survey Satellite (TESS) will extend the pioneering work of 
the Kepler Space Telescope, which showed us that virtually every star 
in the sky has a planetary system. TESS launches in 2017 and will 
discover rocky exoplanets orbiting the nearest and brightest stars in 
the sky in time for the JWST to conduct follow-up observations that 
will characterize their atmospheres and other properties.
                           planetary science
    Planetary Science missions continue to explore the solar system in 
unrivaled scope and depth. This past November, the Lunar Atmosphere and 
Dust Environment Explorer (LADEE) was successfully lowered into its 
optimal position in lunar orbit to enable science data collection, and 
following the mission's final low-altitude science phase impacted the 
surface of the Moon, as planned, on April 17. Using its ion engines, 
the Dawn spacecraft is nearing its next target, Ceres, the largest 
asteroid in the asteroid belt, with an expected arrival in April 2015. 
Other upcoming outer planet encounters include the New Horizons mission 
flyby of Pluto in July 2015 and the Juno mission orbit insertion around 
Jupiter in August 2016. The fiscal year 2015 budget request also 
includes funding for continuing pre-formulation activities and studies 
for a potential mission to Jupiter's icy moon, Europa; with compelling 
evidence of a liquid water ocean beneath its crust, exploration of 
Europa is vital to our understanding of the habitability of other 
planets.
    Building on the success of NASA's Curiosity rover on Mars, the 
fiscal year 2015 request supports plans for a robust multi-year Mars 
program. In a little more than a year on the Red Planet, Curiosity has 
landed in an ancient river bed, determined the age of the surrounding 
Martian rocks, found evidence the planet could have sustained microbial 
life, taken the first readings of radiation on the surface, and shown 
how natural erosion could be used to reveal the building blocks of life 
protected just under the surface. Curiosity is providing vital insight 
about Mars' past and current environments that will aid plans for 
future robotic and human missions. The current Mars portfolio includes 
the Curiosity and Opportunity rovers, the Mars Reconnaissance Orbiter, 
the Mars Odyssey orbiter, and our collaboration on the European Space 
Agency's Mars Express orbiter. It also includes the new Mars Atmosphere 
and Volatile EvolutioN (MAVEN) orbiter, launched in 2013 to study the 
Martian upper atmosphere, which will arrive at the Red Planet in mid-
September 2014. Future missions include the 2016 Interior Exploration 
using Seismic Investigations, Geodesy and Heat Transport (InSight) 
mission, which will take the first look into the deep interior of Mars; 
participation in the European Space Agency's 2016 and 2018 ExoMars 
missions; and the new Mars rover planned for launch in 2020.
    The fiscal year 2015 budget request includes enhanced funding for 
NASA's Near Earth Object survey and characterization activities in 
support of the ARM effort, as well as to protect our planet. Just last 
year, the Wide-field Infrared Survey Explorer spacecraft was 
reactivated, renamed NEOWISE and given a renewed mission to assist 
NASA's efforts to identify the population of potentially hazardous 
near-Earth objects (NEOs). NEOWISE's first discovery of its renewed 
mission came on December 29, 2013--a large near-Earth asteroid 
designated 2013 YP139, which was about 27 million miles from Earth with 
an estimated diameter of roughly 0.4 miles. NEOWISE can also assist in 
characterizing previously detected asteroids that could be considered 
potential targets for future exploration missions.
                              heliophysics
    NASA's Heliophysics Program is composed of 29 spacecraft and the 
associated research to understand the universal physical phenomena of 
magnetized plasmas and their interactions. These include the influence 
of the Sun in our local region of the galaxy, the origins of solar 
variability, and the coupling among various regions at the Earth and 
other planetary systems. Last year, NASA successfully launched the 
Interface Region Imaging Spectrograph (IRIS), a Small Explorer mission. 
Within a few months, IRIS provided a new understanding of how the outer 
solar atmosphere is heated to over a million degrees. The fiscal year 
2015 budget request will support completion of development of the 
Magnetospheric Multiscale (MMS) mission, which will launch in 2015 to 
investigate how magnetic fields connect and disconnect, often releasing 
tremendous amounts of energy in the process. NASA will continue to 
develop the Solar Probe Plus (SPP) mission for a planned launch in 
fiscal year 2018, together with our instrument contributions to the 
European Space Agency's Solar Orbiter mission; Solar Probe Plus will 
repeatedly pass through the hot outer atmosphere of the Sun, to within 
five times the Sun's diameter, which is much closer than any man-made 
object ever has flown before. Finally, the Explorer missions selected 
in 2013 to study Earth's outer atmosphere--Ionospheric Connection 
(ICON) and Global-scale Observations of the Limb and Disk (GOLD)--are 
in their preliminary design phases for planned launches in 2017.
                          aeronautics research
    NASA's Aeronautics research is making air travel cleaner, safer, 
and more efficient. NASA's fiscal year 2015 budget request provides 
$551.1 million to fulfill the Agency's strategic research agenda. This 
innovative research is aimed at transforming the aviation industry 
through game-changing advances in the safety, capacity, and efficiency 
of the air transportation system, while minimizing negative impacts on 
the environment. NASA's fiscal year 2015 research portfolio is aligned 
with six strategic research thrusts to directly address the growing 
global demand for mobility, severe challenges to sustainability of 
energy and the environment, and technology advances in information, 
communications, and automation technologies. This portfolio includes 
those activities in our current portfolio deemed to be the most 
relevant and critical, as well as new activities focused on high-risk, 
forward thinking ideas to address aviation's big problems. The Agency 
will clearly define the most compelling technical challenges facing the 
aviation industry, and retire these challenges in a timeframe that is 
supported by stakeholders and required by NASA's customers. Over the 
next 2 years, NASA will continue to develop, demonstrate, and 
transition to industry and the Federal Aviation Administration new 
vehicle and airspace management concepts and technologies to help 
realize the promise of NextGen, as well as provide technical data, 
analysis and recommendations to support the integration of unmanned 
aerial systems (UAS) into the National Air Space. We will strengthen 
our external partnerships through joint flight experiments using 
alternative aviation fuels and advanced flight deck and vehicle 
technologies, and through demonstrations of advanced sensors to improve 
safety and identify emerging faults before damage occurs. By the end of 
fiscal year 2015, NASA will close out the 6-year Environmentally 
Responsible Aviation project with a series of integrated technology 
demonstrations to demonstrate the feasibility of a suite of 
technologies to meet our aggressive environmental goals. Through the 
alignment of our research portfolio to address the most critical 
challenges facing the aviation sector, NASA will be best positioned to 
continue supporting the global competitiveness of the U.S. aviation 
industry that contributes to a $47 billion positive balance of trade, 
infuses $1.3 trillion annually into the U.S. economy and supports more 
than 10 million direct and indirect jobs.\1,2\ NASA is truly with you 
when you fly.
---------------------------------------------------------------------------
    \1\ ``Global Aerospace Industry Takes Off for the World's Largest 
Aerospace Trade Exhibition in 2012,'' July 6, 2012, International Trade 
Administration.
    \2\ ``The Economic Impact of Civil Aviation on the U.S. Economy,'' 
August 2011, FAA, Page 24, Table 5 and Page 27, Table 8.
---------------------------------------------------------------------------
                            space technology
    NASA's fiscal year 2015 request includes $705.5 million for Space 
Technology, to enable our future in space, drawing on talent from the 
NASA workforce, academia, small businesses, and the broader national 
space enterprise, by delivering innovative solutions that dramatically 
lower costs and improve technological capabilities for NASA and the 
Nation.
    By the end of fiscal year 2014, NASA will test and deliver two 
candidate designs for large deployable solar array systems, power 
processing units, and advanced thrusters to support a flight 
demonstration of SEP. In addition to being important to the future of 
human spaceflight and the ARM effort, high-power SEP can enable orbit 
transfer capability for satellites, and addresses the rapid power 
demand increases facing today's communications satellites. Having 
successfully demonstrated a 2.4-meter propellant tank in 2013, NASA 
will complete testing of a 5.5-meter diameter composite tank to enable 
lower-mass rocket propellant tanks for future systems, including the 
SLS. By the end of 2015, NASA will have completed seven Space 
Technology missions in 24 months, including demonstration of a deep-
space atomic clock for advanced navigation that has commercial 
application for improving GPS systems, the green propellant 
demonstration (a higher-performing, less toxic alternative to 
hydrazine), a solar sail to demonstrate propellant-free propulsion, and 
four small spacecraft missions pioneering new technologies. Building on 
recent successes with its Low Density Supersonic Decelerator, NASA 
plans to conduct high-speed tests--at an altitude of 170,000 feet--of 
the largest planetary parachute ever developed to enable precise 
landing of higher-mass payloads to the surface of other planets, with 
particular focus on infusing advanced capabilities into the Mars 2020 
mission and future human exploration missions.
    NASA's Space Technology investments are aligned with NASA's Human 
Exploration and Operations and Science Programs to reduce technological 
barriers and mission risk, and to foster affordable missions. The Space 
Technology Game Changing Development effort is delivering advanced 
life-support, advanced robotics, and battery technologies for system 
demonstrations planned by Human Exploration and Operations. For 
Science, Space Technology is improving navigational accuracy, 
developing advanced computing and avionics, and developing advanced 
Entry, Descent, and Landing (EDL) solutions, observatory technology, 
and optical communication technology to transmit large amounts of 
science data from deep space. Space Technology is partnering with Human 
Exploration and Operations and Science on many activities, including 
demonstration of in-situ resource utilization, optical communications, 
and advanced measurements on Mars. These precursor activities will pave 
the way and reduce risk for future Mars exploration.
                    exploration and space operations
    NASA is building the capabilities and knowledge to send humans 
farther from the home planet than we have ever been before. The fiscal 
year 2015 budget request for Exploration is $3,976.0 million with 
$2,784.4 million for Exploration Systems Development, $848.3 million 
for Commercial Space Flight, and $343.4 million for Exploration 
Research and Development. Space Operations, including the ISS and Space 
Flight Support, form a critical component of the Agency's exploration 
plans by enabling us to develop the knowledge, experience, and 
technology necessary for safely living and working in space. The fiscal 
year 2015 request for Space Operations is $3,905.4 million, with 
$3050.8 for ISS and $854.6 for Space Flight Support (SFS).
                          exploration systems
    The fiscal year 2015 request will enable NASA to continue to meet 
its milestones in the development of the Space Launch System (SLS), a 
rocket system ultimately capable of bringing an unprecedented 130 
metric tons of payload to Earth orbit. The Orion program continues on 
track for an uncrewed test flight later this year. This test flight, 
Exploration Flight Test-1 (EFT-1), will see Orion conduct two orbits of 
Earth and reenter the atmosphere at approximately 85 percent of lunar 
reentry speed of a returning deep-space exploration mission. The test 
will provide valuable data about the spacecraft's systems--most 
importantly its heat shield and structure. The flight test article for 
this mission is already in place at the Kennedy Space Center and being 
readied for this test. The fiscal year 2015 budget request supports 
progress toward a first uncrewed test of the Orion and the SLS 
together, known as Exploration Mission-1 (EM-1) in fiscal year 2018, 
with the first crewed mission of the two vehicles slated for fiscal 
year 2021-2022. Orion, SLS, and Exploration Ground Systems (EGS) are 
using the latest in systems and manufacturing technology to develop the 
safe and sustainable systems this country needs to extend human 
presence to Mars. Examples include Orion's use of time-triggered 
gigabit Ethernet, SLS' use of friction-stir welding on large structures 
to build the Core Stage, and EGS' replacement of cables from Pad 39B 
with the latest in fiber optics. In developing the Orion, SLS, and EGS, 
NASA is building a national capability for the long-term human 
exploration of space.
                      international space station
    The fiscal year 2015 request supports the ISS with its 
international crew of six orbiting Earth every 90 minutes. The Station 
is making deep-space exploration possible, as we build on the knowledge 
and experience we are gaining from the astronauts living, working, and 
conducting research on the ISS. On January 8, 2014, the Administration 
announced it is committing the United States to the extension of ISS 
operations through at least 2024. This will allow NASA to complete many 
of the research and technology development activities aboard the ISS 
necessary to enable planned long-duration human missions beyond LEO; 
extend the broader flow of societal benefits from research on the 
Station, which has already resulted in a discoveries that could have 
significant medical and industrial implications; provide NASA and its 
private-sector partners time to more fully transition to the commercial 
space industry the transportation of cargo and crew to LEO; instill 
confidence in the science community that the ISS platform will be 
available for important, long-term research endeavors; and help cement 
continuing U.S. leadership in human spaceflight going forward. NASA's 
plans for the coming year include preparing for an extended duration, 
year-long human-crewed mission--slated to launch in March 2015--to 
explore human adaptation to space; and continuing to utilize the ISS to 
improve our ability to live and work in space, including conducting 
technology demonstrations enabling future exploration. The Center for 
the Advancement of Science in Space (CASIS) continues to manage the 
National Laboratory research being conducted in the U.S. segment of the 
ISS by an array of organizations, including commercial researchers 
interested in taking advantage of this unique, microgravity facility. 
One company, NanoRacks, uses standardized hardware to provide a 
microgravity research option for scientists working in venues ranging 
from grade school to academia to industry. During its first 3 years of 
business, NanoRacks sent 91 investigations to ISS, returned 10 to 
Earth, and deployed one CubeSat--a new area of focus using satellites 
that measure about four inches on all sides.
                       commercial crew and cargo
    A top priority for NASA and the Nation is to affordably and safely 
launch American astronauts and their supplies from U.S. soil, ending 
our sole reliance on foreign providers and bringing that work back 
home. Under NASA's Commercial Resupply Services (CRS) contracts, Space 
Exploration Technologies (SpaceX) was awarded 12 cargo flights to the 
ISS, and Orbital Sciences Corporation (Orbital) was awarded 8 flights. 
Counting demonstration flights and CRS resupply flights, SpaceX has now 
completed three cargo missions to the ISS, successfully delivering 
cargo and returning scientific samples to Earth, with the fourth 
mission successfully launched to ISS on April 18. Orbital Sciences 
Corporation has completed their demonstration mission to the ISS and 
their first contract mission under CRS to deliver crew supplies, 
research and other cargo onboard the Cygnus spacecraft; the Orb 2 
mission is currently targeted for June 10. NASA continues to work with 
its commercial partners to develop a U.S. commercial capability for 
human spaceflight and plans to launch American astronauts from U.S. 
soil by the end of 2017. 2014 will be a pivotal year for NASA's 
Commercial Crew Program (CCP) as the Agency intends to award 
development and certification contract by September for the Commercial 
Crew Transportation Capability (CCtCap) phase that would lead to 
operational crewed flights to the ISS. Competition is a key to 
controlling costs over the long term, and NASA's Aerospace Safety 
Advisory Panel has opined that competition should be maintained until 
safety confidence is achieved. Through the successful execution of this 
partnership, we will return to the United States the vital capability 
to launch astronauts to the ISS from U.S. soil and return them to 
Earth.
                               education
    The Administration is proposing increased interagency coordination 
of Science, Technology, Engineering, and Mathematics (STEM) education 
investments, aligned with the 5-Year Strategic Plan released last year 
by the Committee on STEM Education (CoSTEM). The fiscal year 2015 
budget request for Education will enhance the impact of the Federal 
investment in STEM Education through greater interagency coordination 
and cooperation in support of a cohesive national STEM strategy focused 
on five priority areas: K-12 instruction, undergraduate education, 
graduate education, and broadening participation in STEM education and 
careers by women and minorities traditionally underrepresented in these 
fields, and education activities that typically take place outside the 
classroom. The Office of Education will continue its intra-agency 
consolidation of certain educational programs to eliminate duplication 
of efforts and achieve maximum leverage of resources.
    The fiscal year 2015 budget request of $88.9 million consolidates 
education activities in the Office of Education, including several 
elements that may be transferred from NASA's mission directorates under 
a competitive process. The fiscal year 2015 budget request for the 
Education account includes funding for the National Space Grant College 
and Fellowship Program, the Experimental Program to Stimulate 
Competitive Research (EPSCoR), and the Minority University Research and 
Education Project (MUREP), and STEM Education and Accountability 
Projects. These education investments link to NASA's research, 
engineering, and technology missions. Each of these investments 
provides unique NASA experiences and resources to students and faculty. 
The budget also provides $15 million to the Science Mission Directorate 
to competitively fund the best application of NASA Science assets to 
meet the Nation's STEM education goals.
                               conclusion
    Madam Chairwoman, thank you for the opportunity to appear before 
you today to provide you with our progress and status over the past 
year. I would be pleased to respond to any questions you or the other 
members of the subcommittee may have.
                                 ______
                                 
               Prepared Statement of Hon. Paul K. Martin
    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee:
    The Office of Inspector General (OIG) is committed to providing 
independent, aggressive, and objective oversight of the National 
Aeronautics and Space Administration (NASA), and we welcome this 
opportunity to discuss the major challenges facing the Agency.
    Over past 12 months, NASA has achieved a number of milestones that 
advanced its space exploration and scientific discovery goals, 
including a third commercial resupply mission to the International 
Space Station (ISS or Station) by Space Exploration Technologies 
Corporation (SpaceX) and the first such mission by Orbital Sciences 
Corporation, delivery of the final three primary mirrors for the James 
Webb Space Telescope, and deployment of an Earth-observing weather 
satellite developed jointly with the Japan Aerospace Exploration 
Agency.
    While acknowledging these and other achievements, we believe that 
NASA will continue to be challenged to effectively manage its varied 
programs in the current budget and political environment. We agree with 
the observation made by the National Research Council in its 2012 
report examining NASA's strategic direction and management that, in 
effect, too many programs are chasing too few dollars at NASA. 
Accordingly, we continue to view declining budgets and fiscal 
uncertainties as the most significant external challenges to NASA's 
ability to successfully move forward on its many projects and programs.
    For example, the Administration's proposal to extend operation of 
the ISS to 2024 comes with a price tag of at least $3 billion per year. 
Some space policy experts have expressed concern that NASA will not 
have enough money to operate the Station while concurrently developing 
the Space Launch System, the Orion capsule, and other components of its 
human exploration program. Similarly, following 18 years of development 
at a cost of more than $1 billion--a 300 percent increase over initial 
estimates--the Stratospheric Observatory for Infrared Astronomy (SOFIA) 
Project achieved full operational capability in Febuary of this year. 
However, the Administration--citing operational costs of approximately 
$80 million per year--has proposed placing the observatory in storage 
during fiscal year 2015 unless NASA identifies partners willing to 
assume those costs. We are currently conducting audits examining both 
NASA's plans to extend the life of the ISS and its management of the 
SOFIA Program.
    In our most recent report on the Top Management and Performance 
Challenges facing NASA, we identified nine issues:

  --Considering Whether to Further Extend the Life of the International 
        Space Station (ISS)
  --Developing the Space Launch System and its Component Programs
  --Securing Commercial Crew Transportation Services
  --Maintaining Cost and Schedule for the James Webb Space Telescope
  --Ensuring Continued Efficacy of the Space Communications Networks
  --Overhauling NASA's Information Technology Governance Structure
  --Ensuring the Security of NASA's Information Technology Systems
  --Managing NASA's Infrastructure and Facilities
  --Ensuring the Integrity of the Contracting and Grants Processes

    The report appended to this statement provides a detailed 
description of these challenges and the work conducted by our office in 
each area. In this statement, I will highlight three issues: (1) 
securing commercial crew transportation services, (2) ensuring 
continued efficacy of the space communications networks, and (3) 
overhauling NASA's information technology governance structure.
                commercial crew transportation services
    In November 2013, NASA celebrated the 15th anniversary of the ISS. 
Since retirement of the Space Shuttle Program in July 2011, the United 
States has lacked the domestic capability to transport crew to and from 
the Station. Consequently, NASA has relied on the Russian Federal Space 
Agency (Roscosmos) for crew transportation. Between 2012 and 2017, NASA 
will pay Roscosmos $1.7 billion to ferry 30 NASA astronauts and 
international partners to and from the ISS at prices ranging from $47 
million to more than $70 million each trip. In addition, the recent 
dispute in the Ukraine and the resulting U.S. sanctions against Russia 
has intensified calls for NASA to end its reliance on the Russians for 
crew transportation.
    Currently, NASA is working with three companies--The Boeing Company 
(Boeing), SpaceX, and Sierra Nevada Corporation (Sierra Nevada)--using 
a combination of funded Space Act Agreements and more traditional 
contracts governed by the Federal Acquisition Regulation to develop 
commercial crew transportation capabilities. As of August 2013, the 
Agency had spent $1.1 billion on its commercial crew development 
efforts. NASA's goal is to secure commercial transportation for its 
astronauts to the ISS by 2017.
    As we noted in a 2013 report, NASA's Commercial Crew Program faces 
multiple challenges, including (1) unstable funding, (2) integration of 
cost estimates with Program schedule, (3) challenges in providing 
timely requirement and certification guidance, and (4) coordination 
issues with other Federal agencies.\1\
---------------------------------------------------------------------------
    \1\ NASA OIG, ``NASA's Management of its Commercial Crew Program'' 
(IG-14-001, November 13, 2013).
---------------------------------------------------------------------------
    With respect to funding, NASA's Commercial Crew Program has 
received significantly less funding than requested over the past 
several years, resulting in a 2-year delay of the expected completion 
of the development phase of the Program. Moreover, NASA has yet to 
project the total amount of funding required by year, which makes it 
difficult for the Agency to manage its wider portfolio of spaceflight 
programs and reduces the transparency of the Commercial Crew Program's 
budget submissions.
    Further, we found that the process for providing timely guidance to 
partners for satisfying NASA's human rating and certification 
requirements needs to be improved. If NASA is unable to confirm design 
requirements and provide certification guidance in a timely manner, 
NASA's partners companies could face costly and time-consuming redesign 
work late in system development. Finally, coordination of important 
safety issues with the Federal Aviation Administration (FAA) and the 
U.S. Air Force is progressing but has yet to be fully resolved. 
Resolution of issues such as approval processes for in-flight changes 
and reentry and emergency diversions require formal agreement between 
NASA, FAA, and the Air Force.
    Failure to resolve the challenges facing NASA's Commercial Crew 
Program could significantly delay the availability of commercial 
transportation services and further extend U.S. reliance on the 
Russians for crew transportation to the ISS.
                   the space communications networks
    NASA's Space Communications and Navigation (SCaN) Program is 
responsible for providing communications, navigation, and delivery of 
scientific data to space flight missions. SCaN is comprised of three 
networks: (1) the Near Earth Network, which covers low Earth orbit and 
portions of geosynchronous orbit; (2) the Space Network, which controls 
the Tracking and Data Relay Satellites (TDRS) through a network of 
geographically diverse ground systems; and (3) the Deep Space Network, 
which covers NASA mission needs beyond geosynchronous orbit. Without 
SCaN services, NASA could not receive data transmission from its 
satellites and robotic missions or control such missions from Earth, 
and space hardware worth tens of billions of dollars would be little 
more than orbital debris. While NASA has provided these services for 
over 30 years, many of its current satellite communications systems are 
aging and increasingly difficult to repair.
    The OIG is examining the SCaN Program in a series of audits. In the 
first of these reviews released earlier this week, we assessed NASA's 
efforts to maintain, replenish, and modernize the Space Network.\2\ The 
Network, which currently consists of a constellation of nine 
geosynchronous tracking and data relay satellites and three ground 
stations, plans to perform more than 175,000 hours of tracking to 
support 25 to 30 missions in fiscal year 2014. We found that key 
components of NASA's satellite and ground system projects are not 
meeting planned cost, schedule, and performance goals. Taken together, 
these delays and cost growth increase the risk that the Space Network 
will be unable to continue to provide adequate communication services 
to NASA and the other Government agencies and private entities that 
rely on Network services. Further, because of budget reductions and the 
loss of other expected revenue, the Space Network has a projected $63 
million budget shortfall in fiscal year 2016 and even larger estimated 
shortfalls in subsequent years that will make it difficult for the 
Network to meet all planned service commitments.
---------------------------------------------------------------------------
    \2\ NASA OIG, ``Space Communications and Navigation: NASA's 
Management of the Space Network'' (IG-14-018, April 29, 2014).
---------------------------------------------------------------------------
    We recommended that NASA (1) require a revised cost estimate for 
its ground system project and, based on those results, make necessary 
adjustments to its baseline commitment; (2) make the appropriate 
reports to Congress regarding the ground system project; (3) ensure the 
ground system project passes a termination review before re-baselining; 
and (4) examine options to increase funding for the Space Network.
           nasa's information technology governance structure
    Information technology (IT) plays an integral role in every facet 
of NASA's operations. The Agency spends more than $1.4 billion annually 
on a portfolio of IT assets that includes approximately 500 information 
systems used to control spacecraft, collect and process scientific 
data, and enable NASA personnel to collaborate with colleagues around 
the world. Hundreds of thousands of individuals, including NASA 
personnel, contractors, members of academia, and the public, rely on 
these IT systems every day.
    For more than 2 decades, NASA has struggled to implement an 
effective IT governance approach that appropriately aligns authority 
and responsibility commensurate with the Agency's overall mission. 
Since at least 1990, the OIG and the Government Accountability Office 
have highlighted a series of challenges stemming from the limited 
authority of NASA's Chief Information Officer (CIO), decentralization 
of Agency IT operations, ineffective IT governance, and shortcomings in 
the Agency's IT security. Because IT is intrinsic and pervasive 
throughout NASA, the Agency's IT governance structure directly affects 
its ability to attain its strategic goals. For this reason, effective 
IT governance must balance compliance, cost, risk, security, and 
mission success to meet the needs of internal and external 
stakeholders.
    In June 2013, the OIG reported that the decentralized nature of 
NASA's operations and its longstanding culture of autonomy hinder its 
ability to implement effective IT governance.\3\ Specifically, we found 
that the NASA CIO has limited visibility and control over a majority of 
the Agency's IT investments, operates in an organizational structure 
that marginalizes the authority of the position, and cannot enforce 
security measures across NASA's computer networks. Moreover, the 
current IT governance structure is overly complex and does not function 
effectively. As a result, Agency managers tend to rely on informal 
relationships rather than formalized business processes when making IT-
related decisions. While other Federal agencies are moving toward a 
centralized IT structure under which a senior manager has ultimate 
decision authority over IT budgets and resources, NASA continues to 
operate under a decentralized model that relegates decisionmaking about 
critical IT issues to numerous individuals across the Agency, leaving 
such decisions outside the purview of the CIO.
---------------------------------------------------------------------------
    \3\ NASA OIG, ``NASA's Information Technology Governance'' (IG-13-
015, June 5, 2013).
---------------------------------------------------------------------------
    With mission critical assets at stake and in an era of shrinking 
budgets, NASA must take a holistic approach to managing its portfolio 
of IT systems. To overcome the barriers that have resulted in the 
inefficient and ineffective management of the Agency's IT assets, we 
made a series of recommendations to NASA to overhaul its IT governance 
structure to centralize IT functions and establish the Agency CIO as 
the top management official responsible for its entire IT portfolio, 
including empowering the Agency CIO to approve all IT procurements over 
a monetary threshold that captures the majority of IT expenditures. We 
also recommended that the Administrator reevaluate the relevancy, 
composition, and purpose of NASA's primary IT governance boards in 
light of the changes made to the governance structure and require the 
use of reconstituted governance boards for all major IT decisions and 
investments. Finally, we suggested that the NASA Administrator 
reevaluate the resources of the OCIO to ensure that the Office has the 
appropriate number of personnel with the appropriate capabilities and 
skill sets.
    Effective implementation of our recommendations requires a cultural 
shift and significant changes to the Agency's IT management 
decisionmaking regime, including the realignment of authority and 
responsibilities. NASA management has acknowledged a need for such 
change and, in our view, is taking a measured approach to address our 
recommendations. NASA has requested and we have granted extensions for 
all of the report recommendations, and NASA anticipates implementing 
corrective actions by the end of 2014.
    In conclusion, the OIG looks forward to continuing our cooperative 
working relationship with NASA, this subcommittee, and other 
congressional committees as we conduct audits and investigations that 
focus on the Agency's top management and performance challenges.

               SPACE LAUNCH SYSTEM JOINT CONFIDENCE LEVEL

    Senator Shelby. Thank you. Thank you, Administrator Bolden.
    NASA's internal guidance requires that all major projects 
have a Joint Confidence Level of 70 percent. I am concerned 
that the budget request for SLS is a sign that NASA intends to 
advance a funding profile that supports a Joint Confidence 
Level well below the 70 percent threshold.
    In fact, if SLS passed KDPC using $1.3 billion as the base 
funding level, which is the budget request, I believe it will 
result in a Joint Confidence Level close to 50 percent, 
essentially a coin toss.
    Is there any justification, General Bolden, for advancing 
SLS with a funding profile that provides the taxpayers a 50-50 
chance that it will succeed on schedule and on budget?
    Mr. Bolden. Senator, we have used the Joint Confidence 
Level as an indicator. It is sort of like probabilistic risk 
assessment. You called it a 50-50 chance. I am comfortable with 
having SLS come in at less than a 70 percent Joint Confidence 
Level because of the maturity of the system itself.
    We are using shuttle main engines. We are getting ready to 
do main propulsion tests, so we will have the four engines that 
will go through testing at Stennis that will demonstrate that 
that system, as we designed it, is----
    Senator Shelby. Do you like where they are at this point in 
time?
    Mr. Bolden. I love where we are at this point. I am very 
confident--I would not approve moving--and I have to admit, I 
am jumping ahead of myself because it has not come to me yet.
    Senator Shelby. Sure. I understand.
    Mr. Bolden. We have not done that. But I have been 
following this pretty closely, and I am comfortable that 
because of the mature systems that we are utilizing for SLS, 
compared to some other system, a Joint Confidence Level of 70 
percent, which would be great if we had it, is not required to 
make me feel confident that we are going to be able to deliver.
    Senator Shelby. General Bolden, could you assure the 
subcommittee that the funding for SLS will be consistent with 
Joint Confidence Levels required for all other major NASA 
projects?
    Mr. Bolden. Senator, as I just said, if I understand your 
question correctly----
    Senator Shelby. Let me ask it again.
    Mr. Bolden. Well, I think I understood, but you can't fund 
enough to get SLS to a 70 percent JCL, and I don't want you to 
do that. I am not asking for that. That would be unrealistic.
    Senator Shelby. My question, could you assure the 
subcommittee that the funding level for SLS will be 
consistent----
    Mr. Bolden. Yes, sir.
    Senator Shelby [continuing]. Consistent with the Joint 
Confidence Level required for other major NASA projects?
    Mr. Bolden. I can guarantee that I will have the same 
assurance at a lower Joint Confidence Level for SLS that I have 
for other projects that are much less mature at a Joint 
Confidence Level of 70 percent.
    A 70 percent Joint Confidence Level doesn't guarantee 
success, but it has demonstrated, mainly for science missions 
because we have been religious, if you want to call it that, 
about adhering to the 70 percent Joint Confidence Level. And it 
has caused us to bring in projects on time and on cost.
    Senator Shelby. But it is very important that we keep 
funding SLS at a confidence level, a level that they can finish 
their job, on time and on budget. Does that make sense to you?
    Mr. Bolden. Yes, sir. The amounts that we have been 
submitting in the President's budget each year have been 
sufficient for my team to assure me that we will be able to 
make a launch date with SLS and Orion for our----
    Senator Shelby. 2017?
    Mr. Bolden. 2018 is what we are saying, fiscal year 2018 
right now.
    And I would caution, until we bring you----
    Senator Shelby. I thought the SLS would support a 2017 
launch date, which is the current plan. Is that wrong?
    Mr. Bolden. As I said, I will be able to tell you within a 
month for sure what the launch date is to which we are going to 
commit and what the cost for the program will be. That is what 
is going to come out of KDP-C, and we haven't crossed that 
milestone yet.
    Senator Shelby. But the costs have been pretty consistent.
    Mr. Bolden. Consistent. Yes, sir. I agree.
    The amount of money that we have requested and the amount 
of money we have spent year to year on SLS and Orion has been 
consistent. And that is what I promise we will continue to do.

                         ROCKET ENGINE PURCHASE

    Senator Shelby. Thank you. I want to shift gears, just a 
little bit.
    Late yesterday, as you well know, a U.S. Federal claims 
judge issued an injunction prohibiting the United Launch 
Alliance, the ULA, from proceeding with plans to buy Russian-
made rocket engines. This injunction, if kept in place, would 
impact, ultimately, the Department of Defense, NASA, and so 
forth.
    Is there a possibility that this injunction could impact 
NASA's missions?
    Mr. Bolden. Senator Shelby, I would prefer not to add 
conjecture on that. That is a matter in litigation right now, 
and my general counsel has been looking into this since last 
night. I am not an attorney, so I would not dare----
    Senator Shelby. So you wouldn't know whether this order 
would impact NASA's ability to pay Russia for rides to the 
space station?
    Mr. Bolden. I can only tell you that we have already paid 
Russia through 2017, so we are not impacted.
    Senator Shelby. So you are ahead?
    Mr. Bolden. So we are ahead of the game. But that is the 
way we have to be. We have told our partners that the President 
of the United States suggests that we extend the life of the 
International Space Station to 2024. We have told our 
international partners that we are committed to being able to 
carry their crew and ours to the International Space Station on 
American spacecraft by 2017. And so we are committed to that.
    However, to ensure that we can get the crews there through 
2017, we have already made the payment. We made it several 
months ago. So we are okay through 2017.
    Senator Shelby. It is also my understanding, if you can 
confirm this or to reject it, that it would take a couple 
years, that we have a backlog of engines from Russia, so there 
is not going to be an immediate impact.
    Mr. Bolden. I would defer to our partners, Orbital Sciences 
and ULA, because I go on what they tell me, and they tell me 
they have a backlog of engines to cover X number of flights.
    So for us, our missions are covered.

                       ALTERING MISSION PAYLOADS

    Senator Shelby. Sure. What changes would be required to 
alter mission payloads in the event, down the road, that the 
launch vehicle could not be used? What is the estimated cost of 
those changes? Have you gotten that far yet?
    Mr. Bolden. I will take that for the record.
    [The information follows:]
                            launch vehicles
    The changes would depend on when the launch vehicle change occurs 
in the development and ground testing cycle of the spacecraft. The 
closer to the launch date the launch vehicle change occurs, the greater 
the potential impacts. A spacecraft needs to be tested to ensure it can 
handle the launch vibration, g-force, and acoustic environment it 
expects to experience during the ascent to space. Changing launch 
vehicles would require some combination of new testing and analysis to 
assess the new launch environment impacts to the spacecraft. The 
impacts and changes could be minor or they could be large depending on 
the particular spacecraft design and its interaction with the new 
launch vehicle.
    The cost impacts resulting from changing the launch vehicle are 
time- and circumstance-dependent, but could include: spacecraft 
retesting and new analysis efforts, potential changes to spacecraft 
structure, potential requirement to procure a new payload attach 
fitting that attaches the spacecraft to the rocket and softens the 
ride, as well as any spacecraft delivery delays caused by this new 
activity. These costs could be significant, and if a planetary launch 
opportunity were missed, then likely the costs could run into hundreds 
of millions of dollars in delay costs. These spacecraft impact costs 
would be in addition to any costs required to procure a new launch 
vehicle. NASA has not made a specific assessment of cost impacts due to 
the scenario-dependent nature noted above.

    Senator Shelby. We hope we won't get that far.
    Mr. Bolden. Somebody down in the bowels of my ship may be 
doing that, but I have not asked anybody to do that.
    We are optimistic because of our partnership with 
Roscosmos. It has been steady. It has been firm. And it remains 
that way. And I remain in contact with my counterpart, who is 
equally concerned that we maintain that partnership, so I am 
comfortable.

              U.S. RELIANCE ON RUSSIA FOR LAUNCH VEHICLES

    Senator Shelby. Let me get into another area, the same 
basic area.
    Mr. Bolden. Yes, sir.
    Senator Shelby. Since retiring the space shuttle, we have 
relied solely from the Russians to get our astronauts to and 
from the International Space Station. The crisis in Ukraine and 
the current tensions with Russia have caused many people to 
question the longstanding relationship. We are all hopeful for 
a thaw there.
    In the light of recent decisions regarding sanctions, we 
are left to wonder what would happen if Russia no longer 
provided the transportation for our astronauts. And to address 
these concerns, some have advocated simply investing more 
heavily in the commercial crew program.
    General, is there any company participating in the 
commercial crew program today that could be ready to take our 
astronauts to and from the space station within a year? And 
would additional resources make that possible? And how much 
would be required? That is a big question, I know.
    Mr. Bolden. No, no. That is a good question, Senator.
    And although at least two of our--in fact, all three of the 
competitors that I know about, because we are in blackout right 
now with the contract negotiations or selection--all of them 
have flights scheduled in 2015 of one type or another, whether 
they are crewed or uncrewed, and that is normal in a 
development program.
    But just because they fly does not mean that they are ready 
to be human rated. So, with additional funds, we can accelerate 
that schedule of their flying, but they have some technical 
challenges that we should not overlook. So I am comfortable.
    We are sticking with the 2017 date that we will have 
commercial crew available.
    Senator Shelby. And we hope that things work out between us 
and Russia and the rest of the world, but if Russia were to cut 
ties with the U.S. or we were to cut ties with them, and they 
would no longer be able to provide our astronauts 
transportation to and from the space station, what are our 
options?
    If we had astronauts at the space station, would they get 
home? Or do you think that is down the road?
    Mr. Bolden. Senator, a point I think everybody should bear 
in mind is the partnership that runs the International Space 
Station is now a 15-year partnership that is pretty well-oiled. 
It depends not just on Russia and the U.S., but the other three 
partners.
    The way that we have set up the International Space 
Station, I don't want to say there is an indispensable team 
member, but the loss of any team member has an impact on the 
ability to operate the International Space Station. Should we 
or the Russians choose to pull out, the International Space 
Station as we know it no longer exists.
    The dominant member of the International Space Station team 
for day-to-day operations, navigation, crew activities, the 
science on board, is the United States. So if we were to decide 
to pull out, one of the reasons that we request cooler heads 
prevail, if we were to pull out, then there is no more of the 
type of operations that go on, on the International Space 
Station today.
    Senator Shelby. But the fact remains, does it not--correct 
me if I am wrong--that we are dependent on the Russians for the 
transportation?
    Mr. Bolden. Yes, sir. Today, we are dependent on the 
Russians. And if for some reason----
    Senator Shelby. And in the near future, too, right?
    Mr. Bolden. Yes, sir. But if something were to happen that 
caused us to have to evacuate the International Space Station, 
the contingency plan, is we have two vehicles that are there, 
two Soyuz spacecraft.
    Senator Shelby. You think it would work, don't you?
    Mr. Bolden. We get the crews into the Soyuz spacecraft, and 
we would come home. Everybody talks about the Russians 
stranding us. The Soyuz is a three-person crew, a three-person 
spacecraft. At least two of those people are essential, and 
usually one of those two essential people is a flight engineer 
who is an American astronaut.
    Senator Shelby. Okay. You think that would be the escape?
    Mr. Bolden. That is the escape right now. That is the 
emergency return vehicle. It is the nominal return vehicle. It 
is the only vehicle we have. That is why commercial crew 
support is critical for this Nation.
    Where we are today is history, and I don't even dwell on 
how we got here or anything else. I am looking to the future, 
and we are really focused on trying to make sure that we have 
American companies that are ready to fly our astronauts to the 
International Space Station and other low-Earth orbit 
destinations that I think are coming by 2017.
    And if the Congress funds to the President's requested 
level in 2015, we are on a good trajectory to get there.

                        COMMERCIAL CREW PROGRAM

    Senator Shelby. You mentioned the commercial crew 
investment. And while the commercial cargo program has finally 
experienced successes, the process is littered with technical 
challenges, missed milestones, schedule delays, and even 
requests for additional resources.
    That is not unusual now.
    Mr. Bolden. I am glad you said that, Senator. As you know 
very well.
    Senator Shelby. Program participants continue to face 
challenges in meeting the number of contracted space station 
resupply missions. NASA has chosen to use the same process and 
methodology to execute the commercial crew program.
    My questions are these. Given that the commercial cargo 
program was 2.5 years behind schedule and $200 million over 
budget, what assurance or what can you tell us here at the 
subcommittee that the commercial crew program will not suffer 
the same fate?
    In other words, how are they doing? Are they going to be 
basically on time and on the money?
    Mr. Bolden. Senator, I would like to correct one piece of 
information about funding. The total NASA investment in the 
COTS program, the commercial cargo program, was $684 million. 
So I don't think that was over any normal expectation.
    Senator Shelby. Okay.
    Mr. Bolden. Granted, it was delayed, but I would remind 
everybody of the space shuttle program. I got to Houston in 
1980 to become a member of the astronaut corps, and the space 
shuttle was to have launched in 1978. So when I got there, we 
were already 2 years behind.
    We finally launched in 1981. You will remember very well, 
being from Alabama, one of the critical delays was loss of a 
main engine on the test stand at Stennis.
    Senator Shelby. That is right.
    Mr. Bolden. Those kinds of things happen, and we are trying 
to make sure that we don't have that happen in the commercial 
crew development program. There is a difference in the way that 
we are doing the commercial crew program from a safety 
oversight perspective.
    If you were to talk to Ralph Roe, who is now my chief 
engineer, and Terry Wilcutt, the head of safety and mission 
assurance, they are intimately involved in every respect with 
the safety requirements and the human rating specifications for 
commercial crew vehicles.
    We have been working that for 2 years. We have been under 
contract with three providers, Boeing, SpaceX, and Sierra 
Nevada, to make sure that we understand how they are going to 
develop hazard reports, how they are going to track. So that is 
much more like the space shuttle program, than say people are 
familiar with COTS.
    We are now entering into a contract phase, where it is much 
more like it is traditionally done under FAR-based contracts.
    Senator Shelby. General, I will work with you and Senator 
Mikulski. Senator Mikulski and I have worked together for NASA, 
working to make sure, to the best of our ability, that NASA is 
well-funded. We have our job to do on oversight and funding.
    I wish we could find more money for all of our programs. We 
are in tough budget times, as you well know. But we are going 
to do everything we can to fund NASA.

                            ROADMAP TO MARS

    Could you take just a few minutes again--there is a little 
glare for me on that chart there--and go over that chart again?
    Mr. Bolden. Senator, I don't know, do you have a copy of it 
there on your desk? It will probably be easier----
    Senator Shelby. Just follow it.
    Mr. Bolden. I will make it really quick.
    Senator Shelby. Don't make it too quick. It is very 
involved.
    Mr. Bolden. We intended for it to be simple. Let me 
stipulate at the outset----
    Senator Shelby. A lot of work went into this.
    Mr. Bolden. A lot of work went into this.
    But you have some purists behind you there on the staff, 
who are going to be critical of my artwork.
    Senator Shelby. No, they would think you were a master. Go 
ahead.
    Mr. Bolden. Although I show four SLS vehicles orbiting 
Mars, I am taking artistic license. The SLS only goes to low-
Earth orbit, and then it falls back to Earth, so bear with me 
on that. It is trying to show the approximate number of SLS 
missions that we think it would take for a Mars mission to the 
surface of Mars.
    So other than that artwork, forgive me.
    But essentially, it shows where we are today. We are Earth-
reliant. We generally spend 6 months in low-Earth orbit. We are 
getting ready to put up a crew next year. Scott Kelly and his 
Russian counterpart, they will be there for 12 months, so that 
will expand the amount of time that we spend in low-Earth 
orbit.
    We still use the space station as our primary staging point 
to learn about human survival in a microgravity environment.
    Where we are moving is to the proving ground. This is what 
is new, and what people sometimes have a difficult time with. 
We need to get away from low-Earth orbit, so that we can learn 
how to operate our spacecraft. We don't know how to fly out 
there.
    Senator Shelby. What will take you out of low-Earth orbit? 
SLS?
    Mr. Bolden. SLS. Now, you see SLS here quite a bit. And I 
will tell you what is critical, because I want to try to 
present a complete picture. We are not leaving the Earth-
reliant arena ever. We will have to stage there.
    So what will happen for us to be successful with deep space 
exploration, is that we have a firm infrastructure that is in 
place around low-Earth orbit, multiple facilities like the 
International Space Station.
    So my hope is, within the next 5 to 10 years, you will 
start to see commercial providers putting other vehicles into 
low-Earth orbit that will be laboratories, habitation 
facilities, and the like. That infrastructure will have to be 
serviced, and that is why we need commercial crew and cargo.
    So NASA does not provide transportation to low-Earth orbit 
anymore. We are out of the access business. So it is really 
important for everyone to remember we have no exploration 
program without this low-Earth orbit infrastructure that we are 
trying to help industry put in place. We are trying to help 
American industry provide the low-Earth orbit infrastructure.
    Senator Shelby. General, at the end of the day, and, of 
course, you never know what you find out there, this is a very 
ambitious project, the Mars mission, and so forth, but so many 
missions have brought forth so many more things than you 
imagined at the beginning.
    Mr. Bolden. Yes, sir.

                        MARS MISSION POTENTIALS

    Senator Shelby. What would you expect to get out of this? 
This is an important question.
    Mr. Bolden. This is a very, very, very ambitious strategy. 
There are a number of reasons that we believe humans should be 
on Mars. One of them is to make us a multi-planet species, and 
that is a kind of funky term, but what it means is that we will 
demonstrate that humanity can live on more places than just 
Earth.
    The other thing is that it will help us learn a lot about 
Earth, because Mars, asteroids, and other places in our solar 
system sort of came from the same origin as our own planet 
Earth. So looking at Mars and the way it is today, it will help 
us understand--we need to understand how it got there, because 
we think it used to be like Earth. What did the Martians not do 
that got it to be in the bad shape that it is in right now? So 
that is another reason to go there.
    The other reason is because we are an exploring species. We 
have always done that. My and your ancestors moved away from 
the East Coast of the United States to the Mississippi. And 
they got there and they weren't satisfied, and they wanted to 
know what was on the other side of the river, and so they 
continued to go out and to pioneer.
    I use the term ``pioneer'' instead of ``explore.'' 
Exploring implies we are going to go out and come back, like 
Lewis and Clark. We are intending to pioneer Mars, which means 
we are going to put people on that planet to be there 
permanently.

                         HUBBLE SPACE TELESCOPE

    Senator Shelby. I remember in this subcommittee years back 
when people were naysayers about the Hubble telescope. They 
said, ``Oh, gosh, that is a waste of money.'' But it hasn't 
been a waste of money. It has been on the cutting edge of 
exploration.
    Mr. Bolden. It has been absolutely incredible.
    Senator Mikulski, I want to thank you. You weren't here 
when I thanked you the first time, but I am going to thank you 
again for all you have done in leading this subcommittee and 
providing appropriations for NASA.
    Senator Mikulski knows very well. It was because of her 
that we were able to fly the final Hubble servicing mission, 
STS-125, when the decision had been made at my level that we 
should try to do a robotic mission. That was demonstrated to be 
``not'' the right way to do it. Hubble today is an absolutely 
incredible facility that is fully functioning.
    Senator Shelby. A great success.
    Mr. Bolden. We intend to have the James Webb Space 
Telescope (JWST) that we launch in 2018 that will be the 
successor of Hubble. We are in formulation right now to build a 
mission that some people refer to as WFIRST, but it will 
satisfy the science requirements of WFIRST, as laid out by the 
decadal survey.
    So it is a progressive understanding of our universe.
    Senator Shelby. I think so, too.
    I yield to the chairman.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski [presiding]. Thank you very much, Senator 
Shelby. And thank you for opening this hearing. It is part of 
this very bipartisan trust that we have in each other, and I 
appreciate it.
    Because of the terrible storms in the capital region, it 
took me 2.5 hours to come from Baltimore today. We have had 
accidents, mudslides, et cetera. Trains are down.
    And I appreciate that we want to show that we can live on 
Mars. I am kind of dedicated to showing that we can live on 
Earth right this particular minute.
    Again, so I want to thank you. Administrator Bolden, I have 
already read your testimony, and I want to acknowledge the 
written testimony of NASA's Inspector General Paul Martin. We 
had hoped today to have his actual oral testimony, but because 
of the pending votes, we wanted to move as expeditiously as 
possible.

                           PREPARED STATEMENT

    Inspector General Martin has identified nine top management 
performances and challenges facing NASA, all of which this 
sucommittee strongly believes that it needs to address.
    In the interest of time, I am going to ask unanimous 
consent that my full opening statement be included in the 
record, and I am going to move right to my points and my 
questions.
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
    We are here today to review the 2015 budget request for NASA, an 
agency that all of us care deeply about. We have just one witness here 
today: NASA Administrator Charles Bolden, who will testify about NASA's 
budget priorities. NASA Inspector General Paul Martin has also provided 
written testimony regarding NASA's top management challenges.
    This hearing is part of the Senate Appropriation Committee's 
mission to hold more than 60 hearings in a span of 6 weeks. We are 
working diligently and intend to have all our appropriations work done 
by October 1. If successful, it will be the first time that has been 
accomplished since 1996, and it is an important part of our return to 
regular order.
    Let me start by saying that I am unhappy with NASA's budget. I 
worry about what it means for the Goddard Space Flight Center, for 
space science, for Earth science and for NASA's balanced space program.
    The President's budget request for NASA this year is $17.5 billion, 
which is actually $186 million below the fiscal year 2014 level of 
$17.7 billion.
    What I want to hear from Administrator Bolden is an explanation on 
how a cut like this impacts NASA's ability to carry out its mission. 
Frankly, my colleagues and I do not agree with how NASA's proposed 
budget balances these cuts.
    The budget before us proposes to cut science funding by $179 
million--or three percent--below fiscal year 2014. The Space Launch 
System (SLS) and Orion are cut by $365 million--or 13 percent--below 
2014.
    NASA needs this funding to support a balanced space program that 
funds human space flight, reliable and affordable transportation 
systems and space science. I want to see NASA continue its Space 
Station operations.
    It is also important to me that the agency support reliable and 
affordable transportation systems, such as a 2014 test launch for 
Orion, a 2017 launch for SLS and robust funding for a commercial crew 
to get to the International Space Station lab facilities without 
relying on the Russians.
    Finally, I want a space program that keeps NASA's near term science 
launches on schedule and on-going missions on track. I am very 
concerned that the 2015 budget does not invest adequately in future 
science missions.
    For example, the proposed fiscal year 2015 budget reduces Earth 
science by $56 million, cuts astrophysics by $61 million, inadequately 
funds a future Dark energy mission and cuts the on-going Hubble mission 
by 23 percent. That's too much, too soon. We must keep making progress 
on the scientific missions recommended by National Academies' decadal 
surveys now and in the future.
    I am pleased that NASA is extending the life of the International 
Space Station through 2020. Thank you. The Space Station is so much 
more than what everyone saw in the movie ``Gravity''. It is our 
national lab in space, and I am so proud of the astronauts there.
    As of now, there are six people aboard the ISS--two NASA 
Astronauts, three Russian Cosmonauts and one Japanese Astronaut. They 
all arrived there on the Russian Soyuz. That's because when the Space 
Shuttle retired in July 2011, the United States lost its capability to 
fly astronauts into space. The ongoing events in Ukraine have me 
worried about the uncertainty created by that reliance on Russia. Is 
NASA doing all it can to quickly taper our space program's reliance on 
Russia?
    The Members of this Committee have a space coalition that supports 
NASA's balanced missions. But to keep that support during frugal times, 
we need to be able to count on NASA to focus on improved oversight and 
accountability.
    At the request of this Committee, the Government Accountability 
Office (GAO) has been assessing NASA large projects since 2009. GAO's 
most recent assessment shows that NASA's cost and schedule performance 
is improving and that cost growth and schedule slips continue to 
decrease. That's good.
    The average cost overrun is down from 4 percent to 3 percent, while 
average launch delays are down from 4 months to under 3 months. And I'm 
especially grateful for NASA's efforts to keep the James Webb Space 
Telescope on schedule and on budget.
    Many challenges remain. NASA needs to remain vigilant. More than 80 
percent of the agency's funding is awarded by contract--that's more 
than $14 billion of their 2015 request.
    Their Inspector General has identified ongoing agency challenges, 
ranging from project and contract management to cybersecurity. We 
appreciate Inspector General Martin's written testimony on how NASA has 
implemented his recommendations.
    I want to wrap up by thanking the men and women of NASA. From the 
machinists grinding precision parts for spacecraft exploring the 
galaxy, to computer operators compiling data used for forecasting or 
understanding the Big Bang--they all do great work.
    NASA is where scientists are rewriting textbooks and winning Nobel 
prizes. But it's also where astronauts risk their lives to make 
discoveries in space. Their work is vital for understanding the 
boundaries of our universe, expanding the boundaries of science and 
keeping our tech economy moving forward.
    We need to make sure NASA's budget is adequate to meet that 
mission.

    Senator Mikulski. First of all, we want to say good morning 
to you, Administrator Bolden.
    Mr. Bolden. Good morning.
    Senator Mikulski. I am sorry I couldn't be here earlier, 
that we couldn't have had coffee together and so on. We 
appreciate your continual service to our country, and we also, 
as I said, want to thank the inspector general.
    Also, I know Senator Shelby and I really want to thank the 
men and women who work at NASA, and the men and women who are 
the civil servants at NASA, and we want to thank also the 
contractors who do so much of the important work. They have 
been under so many stresses.
    Doing space and aeronautics in and of itself is 
challenging, challenging technology, challenging environments. 
It is not just like the movie Gravity, which was mesmerizing, 
where it had a happy ending, because they faced everything from 
sequester to slam down, shut down. It has been a rough road.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. And so we really want to thank them for 
their continual dedication.
    There are many issues to discuss, one of which is the aging 
workforce at NASA, impending retirements, the recruitment and 
retention of others. But let's get right to the appropriations.

                           FUNDING REDUCTIONS

    First of all, I was deeply troubled to receive the 
President's budget. I was deeply troubled in the area of NASA 
because there was a reduction of $186 million from fiscal 2014, 
which we already knew was tight.
    I can't thank Senator Shelby enough for the way he helped 
move that omnibus. It didn't happen because of Barbara 
Mikulski. Behind me there was a whole lot of we, including my 
vice chairman. We worked together.
    So when we saw this $186 million, it was deeply troubling.
    Now, I am committed to a balanced space program, human 
spaceflight, reliable transportation system to both the space 
station and areas beyond, the space science, and, of course, 
aeronautics.
    So we saw $186 million cut, and then to rub raw the sores 
of discontent, we also saw that Goddard Space Agency was cut by 
$200 million--$200 million in very important science programs.
    Senator Shelby has also raised the cuts in SLS and Orion, 
which are the kind of hallmark for going out there.

                  MAINTAINING A BALANCED SPACE PROGRAM

    So I am going to go right to my question about how to 
maintain a balanced space program when the two major programs--
I know Senator Shelby has looked at those things related to a 
heavy-lift capacity. Are we really funding a lot of things at 
the expense of space science? Why did you take $200 million out 
of Goddard?
    Mr. Bolden. Senator, as you said, and I appreciate your 
enthusiasm for a balanced portfolio, we have sought to put in 
place a balanced portfolio for the agency.
    There are a number of projects that are in formulation, in 
which Goddard will play a critical role. The funding for those 
projects have not yet been designated and distributed. We look 
at the long-range viability of each of our centers, and I 
firmly believe that Goddard will continue to be an integral 
part of all the programs that we have going forward.
    I mention the formulation of a mission to seek out to 
satisfy the objectives of WFIRST as laid out by the decadal 
survey. None of that is reflected yet in the NASA budget in the 
out-years, or in the Goddard budget. So those will be areas 
that will be plussed-up.
    We look at all of the centers. I sit down with the center 
directors and Robert Lightfoot, and we look at what they see 
for the out-years, because stability is what the center 
directors seek. Stability in funding is something that you have 
said is a goal of yours, and I applaud you for that, because 
nothing will be as critical as stability in funding in the out-
years for our planning and for centers to feel that they know 
where the future is. The instability in funding has been the 
thing that has us where we are right now.

                             SCIENCE BUDGET

    Senator Mikulski. I understand the stability and funding 
issue. It is not only me, but it is Senator Shelby and, I must 
say, our mutual leadership. So that is why we worked with 
Senator Murray and Senator Sessions to pass a budget that 
canceled sequester. It was a tough swallow. I would have wanted 
to do more in some areas, less than others, my colleague. But 
that is to be debated.
    So you want to talk about future missions and decadal and 
is Goddard going to have a future. But it has a future now in 
its bread-and-butter issues. The two bread-and-butter issues in 
telescopes are keeping Hubble on track to continue be the 
greatest telescope since the Galileo and the James Webb.
    So with James Webb, we know that there has been a decrease 
of $13 million. I don't dispute that, but the margins are very 
thin and they are at the high-risk area. I have been out there. 
We have been there together. We have seen some of this. It is 
very exciting.
    Hubble in the meantime continues to fly and continues to 
dazzle and continues to write the science books and continues 
to make Nobel Prize winners. So at the same time, Hubble has 
been cut $23 million.
    Now I know some might say that is an accounting adjustment, 
and we are going to fix it in 2016. I don't know what 2016 is 
going to be. I know what 2015 is going to be.
    So this is what we need to do. I don't want to talk about 
future missions. I want to talk about now. I am going to talk 
about Earth science, heliophysics, planetary science. I don't 
want science to be a bank account for other projects that might 
or might not happen in the future.
    Mr. Bolden. Senator, I promised when I became the NASA 
administrator that we were not going to use science as a bank 
for any of the programs in the agency, and I think we have done 
that. We have not moved, and I refuse to move any funds out of 
science into another program area.
    What we are looking for is a balanced portfolio in the 
science, inside the Science Mission Directorate. And as I said, 
the missions in formulation--when Chris Scolese talks about the 
future, which is exactly what he is saying, when he looks at 
the out-years, he doesn't see funds for WFIRST, he doesn't see 
funds for----

                          EARTH SCIENCE BUDGET

    Senator Mikulski. I don't want to be beating a dead 
satellite here, but Earth science is $56 million below fiscal 
year 2014. And fiscal year 2014 was already tough.
    Mr. Bolden. Senator, we are finding that we have 
efficiencies in the way that we fly Earth science missions. For 
the first time ever, we have two Earth science missions that 
are going to the International Space Station this year. They 
are significantly less cost to the taxpayer.
    And we are trying to find more and more ways to get 
efficiencies in our programs.
    So I think in the long run, when I sit down with Chris 
Scolese at Goddard and Charles Elachi out at JPL and Steve 
Jurczyk down at Langley, the people who spend most of their 
time thinking about Earth science and planetary science, we 
will find that there is a balanced distribution of the funds in 
the out-years, once we get a lot of the formulation----

                        SPACE STATION EXTENSION

    Senator Mikulski. Well, you and I really strongly disagree 
on this, Administrator Bolden. We really do strongly disagree 
on this.
    But I want to go to something we do agree on, and that goes 
to the extension of the life of the space station.
    That was a bold decision on your part. But both Senator 
Shelby and I, along with our colleagues, want to make sure that 
we get research value for that. And what has been so, I think, 
strong has been the bipartisan support of both the 
appropriators, and when we look at our authorizers--and back in 
the day, it was Senator Nelson and Senator Kay Bailey 
Hutchison--the whole idea of what could be done on the space 
station was exciting. So let me get to my question about that.
    In order for the space station extension to be viable, we 
need to be able to get there.
    Mr. Bolden. Yes, ma'am.

                        NASA-RUSSIAN COOPERATION

    Senator Mikulski. We are all deeply troubled about what is 
going on in Ukraine, and the behavior of Russia and Mr. Putin's 
words and so on. We leave that to our President and our 
Secretary of State.
    But what we are worried about is the reliability. As I 
understand it, there are two ways that the space station, we 
have to be able to get there. So one, we have to keep 
commercial crew on track, and the other is, as we impose 
sanctions with the Russians, will this jeopardize their 
cooperation on Soyuz? So let's put Soyuz here.
    Let's go to commercial. One, how do you see the commercial 
cargo staying on track, particularly with the Orbital-ATK 
merger?

                        RELATIONSHIP WITH RUSSIA

    And then second, could you bring us up-to-date on the 
relations with the Russians. And no matter what happens, do you 
think that will be strong, or is that in jeopardy? Can you 
answer both those?
    Mr. Bolden. Senator, as I mentioned to Senator Shelby 
earlier, I could not state more strongly that the relationship 
between Roscosmos and NASA is solid. I communicate with my 
counterpart on a regular basis. Bill Gerstenmaier, who runs 
human exploration, was just there for a Soyuz launch, about a 
month ago, and he continues to work.
    I think that you know that Sergei Krikalev, who was a 
former crew member of mine, is in the leadership there.
    Senator Mikulski. So you are all okay and doing Kumbaya 
now, but it is a delicate situation internationally. We are 
going to be escalating our sanctions, and I am not talking 
about your current relations. I am talking about, are the 
future relations, in general, in jeopardy?
    And do you think that our aggressive pursuit of sanctions--
and I am supporting the President in his sanctions. We have to 
take a strong stand, and we are proud of our NATO alliance.
    So you see where I am heading?
    Mr. Bolden. Yes, ma'am. Senator, as much as I would love to 
delve into diplomacy and things, because I do think I have a 
worthwhile opinion, but I am going to resist the temptation to 
do that. I am going to say that what I am striving to do is 
continue the relationship I have with Mr. Ostapenko, who heads 
Roscosmos, to make sure that he does get everything that he can 
across in Russia to calm down the diplomats and the politicians 
there, as we are trying to do here in the U.S., to help people 
understand the importance of this partnership.
    We are trying to accelerate as rapidly as we can the 
availability of commercial crew, so that we can launch our 
astronauts from----
    Senator Mikulski. Well, let's move on to that. But I think, 
really, Senator Shelby and I would like to be able to stay in 
touch and also to keep an eye on it. I think it is a very 
delicate situation.
    Mr. Bolden. Yes, ma'am.

                            COMMERCIAL CARGO

    Senator Mikulski. So let's go to commercial vehicles. So 
what do you think? How are we doing on commercial cargo? And 
then let's go to commercial crew, both from a budgetary 
standpoint, and when do you think, what are the targets for 
commercial crew?
    Mr. Bolden. Senator, we are in relatively good shape. We 
are in great shape with our commercial cargo right now, because 
Orbital Sciences, that does use a Russian engine, we are told, 
has enough engines in their stockpile to get through this 
contract.
    We are in the process now of getting ready to negotiate a 
new contract for commercial cargo after 2016. Orbital, like 
most other companies, is working with the engine manufacturers 
to see if there is not a U.S. option for engines.
    So those are things that they have been doing long before 
this recent crisis took place, because they would like to get 
newer engines. The NK-33, which is now the AJ26, is an old 
Russian rocket engine. Senator Shelby knows we have been trying 
to get away from that and get to new technology as quickly as 
we can, and that work is underway. SpaceX has an American-
generated, American-manufactured, engine, so that part of the 
commercial cargo is stable, and should not be affected at all.

                            COMMERCIAL CREW

    Senator Mikulski. Now let's go to commercial crew.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. What are your target timetables? Do you 
have the resources to meet those timetables? Could you 
elaborate?
    Mr. Bolden. Senator, again, I have to thank you for 
fighting the good fight with commercial crew and trying to keep 
our funding as high as possible. Because of your efforts and 
that of Senator Shelby, the 2014 mark, while not what we would 
have wanted, was enough that, if matched with the President's 
request for $848 million in 2015, will keep us on target for 
2017 availability of American capability to launch our crews to 
space safely and reliably through competition, which we feel is 
absolutely necessary.
    Senator Mikulski. Well, as I understand it, commercial crew 
is funded at $848 million. It is $156 million above fiscal year 
2014, and your goal was to send astronauts to the space station 
on U.S. rockets by 2017. Is that right?
    Mr. Bolden. That is correct. That is the present goal.
    Senator Mikulski. So you envision American astronauts to be 
on a vehicle that can go to the space station by 2017?
    Mr. Bolden. That is correct. In an American vehicle.
    Senator Mikulski. Excuse me, that is exactly right.
    And do you feel that you have the resources to be able to 
accomplish that? We are obsessed with the safety--and I know 
you are. Boy, we are committed to the safety of our astronauts.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Exploration is great. We love extending 
the life of the space station. But we are for the safety of 
those men and women who are so daring to do this.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. So whatever we do, we know that there is 
always risk. We know that.
    Mr. Bolden. Senator, I cannot overemphasize this. As long 
as you continue to fight as you have been doing, you and 
Senator Shelby, on the importance of commercial crew, if we can 
get the President's request funded at $848 million, based on 
having the $696 million that we have this year in 2014, we 
should be on target for an American capability in 2017.
    Senator Shelby and I were talking earlier, is it possible 
to accelerate that? With more funds, it is possible to 
accelerate that, but we are sticking with a 2017 crew launch 
availability.
    Senator Mikulski. Including all the human ratings?
    Mr. Bolden. That is all the human ratings.
    Senator Mikulski. But if we fund it at fiscal year 2015, 
this will mean competition of two providers? Do you intend to 
shrink that? I mean, right now, there are more than two 
providers.
    Mr. Bolden. If you allow me, I will stay away from saying 
how many there are going to be because I don't know how many we 
are going to select. But what I want to assure you is, no 
matter how many providers we select, the vehicle will be safe. 
It will meet our requirements in every regard. And it will be 
available in 2017.
    So that is what I can promise this subcommittee, and that 
is what is important to us right now.
    Senator Mikulski. Senator Shelby.
    Senator Shelby. I didn't have any other questions. I just 
have some observations.
    Senator Mikulski. Well, before you do, I know you have been 
very interested in this commercial----
    Senator Shelby. We got into it a little earlier, and I 
appreciate you continuing in that vein of questioning.

                         CYBERSECURITY AT NASA

    Senator Mikulski. Well, we could talk about our telescopes, 
but I understand they are on track, but for the James Webb, 
this is a very difficult one.
    I want to go to another issue that is of keen interest, 
again, on both sides of the aisle, which is cybersecurity at 
NASA.
    As I understand it, NASA has some pretty big challenges. 
This has been identified by you. It has also been identified by 
the inspector general.
    The inspector general talks about inadequate tools for 
real-time monitoring, a high amount of unprotected network 
access points, uncoordinated adoption of cloud computing, 
failure to use best practices in managing IT vulnerabilities.
    Do you want to comment on the I.G.'s rather stern 
assessment of the cybersecurity?
    Mr. Bolden. Senator, I will say as they did with 
Congressman Wolf in an earlier hearing. We recognized long 
before anyone else, I recognized the first day I became the 
NASA Administrator, that we had a big hill to climb in terms of 
IT security, how we run our IT cybersecurity program, because 
we are among the largest areas threatened in the Federal 
Government.
    We have taken a number of actions. Now we have worked with 
NAPA to do a study of our foreign national access management. 
That study also included cybersecurity, IT security. It 
identified 27 actions, recommendations that they gave to us. I 
accepted every single one of those 27 actions. We have 
prioritized them in coordination with NAPA, in what we think 
are critical areas of importance.
    So we go down the list on a risk basis. We are already 
working on the top six. They are funded with internal NASA 
funds that we already have available.
    When we get ready to submit the 2016 budget request, we 
will have a pretty good idea how much additional funds we need 
to put into IT security and cybersecurity. We are going to have 
to put additional people on it. We are advertising right now 
for a manager for a foreign national access management program.
    Senator Mikulski. Who is in charge of this?
    Mr. Bolden. I am. I am ultimately in charge, but my chief 
information officer----
    Senator Mikulski. But you are in charge of a lot.
    Mr. Bolden. My chief information officer is Larry Sweet. I 
brought him up from the Johnson Space Center. He was the chief 
information officer there. He was competitively selected.
    Senator Mikulski. So is Mr. Sweet--in other words, have you 
put into place a management structure to oversee the 
cyberstructure, because it is very uneven.
    Mr. Bolden. We have.
    Senator Mikulski. We are worried about protecting ``dot 
mil,'' okay? I think ``dot gov'' is very nifty. And then, of 
course, there are the challenges to ``dot com'' that we see in 
the marketplace every day.
    I can't control ``dot com,'' but we can do something about 
``dot gov.'' So we really need kind of the edge of the chair on 
this.
    Mr. Bolden. Senator, when you talk about leadership, there 
are three people, three buttons that I push. Joe Mahaley heads 
our operational security branch. Robert Lightfoot, who is the 
associate administrator, has overall oversight for this. 
Senator Shelby knows him very well from his time at the 
Marshall Space Flight Center, and then Larry Sweet.
    So between the three of them, those are the three who I go 
to who can answer any questions that may come up about our 
approach and our plan in the out-years for shoring up our 
cybersecurity, our IT infrastructure.
    One of the basic problems we had was governance. There was 
no centralized governance for IT. The chief information officer 
for the agency didn't control anybody except people at NASA 
headquarters. That is unsatisfactory.
    Senator Mikulski. You have been the administrator for 5 
years.
    Mr. Bolden. And we now have, just as public relations, or 
public communications, legislative affairs, information, IT, 
that all comes to headquarters for coordination. We don't order 
people what to do. We don't control the funds at the center 
level, but we coordinate it such that funds are spent in----
    Senator Mikulski. Well, I appreciate the progress you have 
made. You have had a job for 5 years.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. This is not a new problem.
    Mr. Bolden. No, ma'am. Not by any means.
    Senator Mikulski. Cyber has been an ongoing problem. And we 
hope that there continues to be a sense of urgency.
    Senator Shelby.

                            NASA PRIORITIES

    Senator Shelby. I have no other questions, other than to 
tell General Bolden, our administrator, that we do have 
challenges. You have challenges, and both of us believe that we 
want to fund these missions.
    Mr. Bolden. Yes, sir.
    If I go back to cybersecurity, we have now, because of 
Larry Sweet, Robert Lightfoot, and Joe Mahaley, we now have 
dates assigned when we expect that we will answer the mail, 
when we will have actions complete. Some of those dates, 
unfortunately, because of budget limitations, are not next 
year. They may be 2016 or 2017. But we have a plan to get 
there. As I said, it is a risk-based plan. The things that 
leave us most vulnerable we are trying to take care of right 
now, so that we are shoring up. We are sticking our finger in 
the dike while we have somebody behind us building another 
better dike. But we are using a risk-based method for putting 
money against the problems that we have.
    Senator Mikulski. Well, we agree, I think, all of us, on 
the goals of NASA. We are troubled over these continually 
shrinking resources. Remember, we are given a cap on 
discretionary spending.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. And there are also firewalls.
    We note that NASA's highest funding level was in 2010 when 
it was $18.7 billion. That is roughly about $1 billion less 
now. So we are not on an upswing here. There is not new money 
on the horizon, so I think we have to be candid about that.
    We are looking at this in a very strong way. We are 
committed on a bipartisan basis to a balanced space program. 
And we have big challenges ahead, and we need to cooperate with 
you. And we do appreciate your longstanding service, both in 
other capacities serving the Nation and now.
    But though we agree on the goals, I am not so sure we agree 
on some of these priorities in here.
    So we have taken your testimony, and we found it very 
informative.
    Again, I really apologize for being late. I had hoped to be 
here earlier.
    And thank you, Senator Shelby.
    And so we need to have ongoing conversations. We hope that 
within the next week, between now and next Thursday, that we 
have our allocations ready and that we will begin to do our 
markups. And it would be our goal to have CJS through the full 
committee before the Fourth of July break.
    So that is our goal. That is our timetable.
    And because of the strong bipartisan support, and strong 
tell-it-like-it-is from Senator Shelby, I think we will get it.
    So thank you very much, and we will be in touch with you 
and your staff.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted to Hon. Charles F. Bolden, Jr.
            Questions Submitted by Senator Dianne Feinstein
                                science
    Question. I have long supported the National Aeronautics and Space 
Administration's (NASA) Mars exploration program, which has really 
become a crown jewel of the agency after the successful Curiosity rover 
landing.
    However, I am concerned that continued underfunding of this program 
could lead to an inability to meet the long-scheduled goal of another 
rover launch in 2020.
    This is a real concern. Under the proposed schedule, any slip in 
component delivery will threaten the viability of the entire program, 
because scientists tell me that after 2020, the orbits of Earth and 
Mars will be millions of miles further apart. So further delay would 
only make the program more complicated and more expensive.
    Does the Administration remain committed to a 2020 launch of the 
next Mars rover, and will the requested funding level allow the program 
to remain on schedule?
    Answer. NASA's Mars Exploration Program has been, and will continue 
to be, a major success story for NASA in science, engineering, and 
technology development. The Administration's fiscal year 2015 budget 
request supports plans for a robust multi-year Mars program, which 
includes a budget profile for Mars 2020 that will allow the project to 
proceed as planned with a launch readiness date in 2020. NASA remains 
committed to finding the most cost-effective way to accomplish the Mars 
2020 mission, and has implemented proven processes and procedures to 
reduce the likelihood of cost or schedule overruns. Given these 
factors, we are confident that the requested funding level will allow 
the program to remain on schedule.
    Question. Since the mid-1990s, NASA has invested more than $1.1 
billion in the Stratospheric Observatory For Infrared Astronomy 
(SOFIA), a project that has been jointly funded with the German space 
agency (DLR). SOFIA recently achieved full operational capability in 
February 2014, just 11 days before the fiscal year 2015 budget proposed 
to cancel the program.
    Administrator Bolden, experts and scientists working on this 
project in California have indicated that they were shocked by the 
abrupt nature of this proposed cancellation.
    What was the process for reaching this assessment that SOFIA is now 
a ``lower priority program''?
    Answer. The decision to propose, as part of the fiscal year 2015 
NASA budget request, to put SOFIA into storage was primarily a 
budgetary decision driven by the tight budget caps in the Bipartisan 
Budget Act of 2013. SOFIA's scientific priority relative to other 
missions within NASA's Astrophysics portfolio was a secondary 
consideration to accommodating the level of NASA's fiscal year 2015 
Astrophysics budget request ($607 million) compared with the fiscal 
year 2014 appropriated level ($668 million). Hence, NASA has to make 
tough budget decisions in order to maximize the scientific return of 
the public investments in the astronomical sciences. Further, among the 
Astrophysics projects considered for budget reduction, SOFIA was 
identified for two reasons. First, it is the only strategic 
Astrophysics project that was not a first priority of a Decadal Survey. 
Second, while it was a priority in the 1990 Decadal Survey as a medium-
class mission, its operations costs are the second largest of all NASA 
science missions, with only Hubble Space Telescope costing more.
    Question. Could you explain why NASA did not follow its usual 
process of conducting a ``Senior Review,'' which engages experts in the 
community to set priorities and make tough decisions on whether to end 
a mission?
    Answer. Senior Reviews are reviews of the science productivity of 
operating missions to support an assessment, based on demonstrated 
science accomplishments, of the anticipated science value of an 
extended mission. At the time of the 2012 Astrophysics senior review, 
SOFIA had not entered operations and therefore had not established a 
baseline of science accomplishments appropriate for a Senior Review. 
With the successful commissioning of its fourth science instrument in 
February 2014, SOFIA entered its operations phase in May 2014.
    Question. How will you explain to the U.S. taxpayers that the 
Administration has simply changed its mind and wasted the $1 billion it 
spent building SOFIA?
    Answer. Given today's severely constrained budgets, NASA has to 
make tough budget decisions in order to maximize the scientific return 
of the public investments in the astronomical sciences. SOFIA's high 
operating cost was a primary factor in the fiscal year 2015 budget 
proposal to put SOFIA in storage, unless alternative funding sources 
are found. Any alternative accommodation of the proposed reduction in 
the NASA Astrophysics budget would similarly impact other Astrophysics 
missions. While significant funding has been spent to develop SOFIA, 
this funding is less than half of the estimated $3 billion life-cycle 
cost of the program.
    Question. As you know, SOFIA is a joint project between the United 
States and Germany. Germany has contributed 20 percent of the cost to 
develop SOFIA. Germany also built the telescope and contributed the 
engines and other components. Moreover, Germany has agreed to 
contribute 20 percent of the operating costs.
    Why would NASA choose this moment to pull out of its commitment?
    Answer. The decision to propose, as part of the fiscal year 2015 
NASA budget request, to put SOFIA into storage was primarily a 
budgetary decision driven by the tight budget caps in the Bipartisan 
Budget Act of 2013. The memorandum of understanding (MOU) with Germany 
recognizes that our ability to carry through on our agreement is 
dependent on the availability of adequate appropriated funding. Some 
examples of the rich and robust NASA-DLR cooperation at the forefront 
of discovery include the Gravity Recovery and Climate Experiment 
(GRACE), the Fermi Gamma-ray Space Telescope, the Dawn mission now on 
its way to the asteroid Ceres, and the Mars Science Laboratory/
Curiosity. Our long history of mutually beneficial collaboration will 
continue well in the future, bilaterally through missions like InSight, 
and multilaterally through the European Space Agency (ESA) where our 
work in development expands to such projects such as James Webb Space 
Telescope (JWST) and Exobiology on Mars (ExoMars)/Mars Organic Molecule 
Analyzer (MOMA).
    Question. Are you concerned that this decision will erode trust not 
only between the U.S. and Germany, but also between the U.S. and other 
international partners on projects in the future?
    Answer. No. Even the most robust space partnerships, such as those 
among the International Space Station partners, have weathered such 
developments. Our partners are very aware that in all instances our 
cooperation is based on the availability of appropriated funds, just as 
we are aware that their participation has similar funding constraints. 
NASA has a long history of very successful cooperation with nations 
around the world, and a part of that history has from time to time 
included some decisions by NASA and some by our international partners 
to re-phase, redesign, or even terminate planned cooperative 
activities.
    Some examples of the rich and robust NASA-DLR cooperation at the 
forefront of discovery include the Gravity Recovery and Climate 
Experiment (GRACE), the Fermi Gamma-ray Space Telescope, the Dawn 
mission now on its way to the asteroid Ceres, and the Mars Science 
Laboratory/Curiosity. Our long history of mutually beneficial 
collaboration will continue well in the future, bilaterally through 
missions like InSight, and multilaterally through ESA where our work in 
development expands to such projects such as James Webb Space Telescope 
(JWST) and ExoMars/MOMA.
    Other countries continue to work with NASA on a wide variety of 
international partnerships, and we have not observed any change in 
their willingness to work with us. Currently, NASA has over 600 active 
agreements with over 120 countries and anticipates that international 
cooperation will remain a cornerstone of all of its future activities.
    Question. The budget notes that SOFIA will be placed in storage 
``by fiscal year 2015'' unless other ``partners are developed to 
support the U.S. portion of SOFIA costs.'' As you know, Congress fully 
funded SOFIA operations for fiscal year 2014.
    Does NASA intend to mothball this fiscal year despite it being 
fully funded by Congress?
    Answer. NASA will not take any unilateral action without an 
appropriate reprogramming notification to the Committees on 
Appropriations. NASA has not submitted a fiscal year 2014 modified 
Operating Plan to begin the shutdown process for SOFIA.
    We can also confirm that the German Aerospace Center (DLR) and NASA 
have decided to proceed with the scheduled Heavy Maintenance Visit for 
SOFIA in Germany as planned; SOFIA arrived in Germany at the end of 
June, 2014, and the Heavy Maintenance Visit is underway.
    Question. If this occurs, how feasible do you think it would be for 
NASA to reassemble the team, should SOFIA be restarted in the future?
    Answer. It is very difficult to predict the long-term impacts on 
the team of mothballing SOFIA; however, NASA acknowledges that trying 
to reassemble the team after a period of mothballing would be difficult 
and could require substantial effort.
                            space technology
    Question. There are several significant projects and technologies 
NASA identified and funded in the budget that are important for 
providing communications and deep space navigation technology for human 
and robotic exploration. For example, the Lasercom Relay Demonstration 
(LCRD) will provide space-based optical data relays. The use of Human 
Exploration Telerobotics/Human-Robotic Systems will cooperatively 
enhance and speed up human space exploration missions to new 
destinations. Another project in the Space Technology account, Solar 
Electric Propulsion, would leverage capabilities developed and deployed 
by the commercial satellite industry and expand them with NASA funded 
developments to meet long endurance space missions.
    Do you believe the funding requested in the President's fiscal year 
2015 budget is sufficient to ensure these activities continue to 
advance human and robotic exploration as well as science missions?
    Answer. Yes. We hope that the final fiscal year 2015 appropriation 
for NASA will fund the entire Space Technology request of $706 million. 
NASA believes this funding level requested for Space Technology will 
enable the technical investments needed for NASA's future science and 
human exploration missions. The requested funding level would allow 
NASA to invest in key technology development efforts including: Solar 
Electrical Propulsion (SEP), Laser Communications Relay Demonstration 
(LCRD), Deep Space Atomic Clock (DSAC), Low Density Supersonic 
Decelerators (LDSD), Green Propellant Infusion Mission (GPIM), 
Cryogenic Propellant Storage and Transfer (eCryo), Revolutionary 
Robotics and Autonomous Systems, and other critical technologies needed 
for human and robotic exploration deeper into our solar system, leading 
to human missions to Mars. In addition, fully funding the fiscal year 
2015 Space Technology appropriations request brings new crosscutting 
technologies and capabilities that lower the cost for other Government 
agencies and the Nation's aerospace industry.
    Question. What would the impact be on these innovative technologies 
if funding did not remain at NASA's fiscal year 2015 requested level?
    Answer. A number of impacts to important efforts within Space 
Technology will occur should the appropriated funding level reduce 
below the President's budget request. The extent of the impact will 
depend on the funding scenario. If reductions are made from the 
requested levels, Space Technology will likely prioritize existing 
content by scaling back planned competitive awards for most Space 
Technology programs and slowing the start of new technology 
demonstrations. Reducing new competitive awards provides stability for 
existing efforts--especially for those near their launch readiness 
date, but severely impacts the technology pipeline for the Agency, 
resulting in a loss of capabilities and efficiencies for future 
missions.
    At the proposed House Appropriations funding level for Space 
Technology, NASA will scale back competitive awards as noted above. In 
addition, the following Technology Demonstration Missions (TDM) would 
likely continue, but with increased execution risk due to the 
elimination of most of the program's contingency funding: Laser 
Communications Relay Demonstration, Deep Space Atomic Clock, Low 
Density Supersonic Decelerators, eCryo and Green Propellant Infusion 
Mission. Development of the high-priority Solar Electric Propulsion 
would continue, as planned. Such reductions are particularly 
challenging for projects planned for launch in 2015 including: Deep 
Space Atomic Clock, Low Density Supersonic Decelerator, and the Green 
Propellant Infusion Mission.
    In addition, the fiscal year 2015 funding levels proposed in the 
House bill for Space Technology would likely result in significant de-
scoping of content or potential cancellation for the following: 
revolutionary robotics, autonomous systems, hypersonic deployable 
technologies, modeling for entry, decent and landing technologies, 
nuclear system development, Center Innovation Fund (CIF) activities, 
and new awards in the Small Spacecraft Technologies (SST) program and 
the Space Technology Research Grants (STRG) program. Reduced funding 
levels may also impact risk reduction efforts for technologies being 
developed in preparation for the Discovery 14 opportunity including 
deep-space optical communication and advanced thermal protection 
systems.
    Space Technology will prioritize technologies based on thrust areas 
identified as critical to increasing the Nation's capabilities in 
space, including those meeting the Agency's exploration and science 
goals. This includes advancement of Solar Electric Propulsion required 
for the Asteroid Redirect Mission as well as future human missions to 
the surface of Mars. These thrust areas also emphasize Space 
Technology's support of continued Mars robotic science exploration, 
expanding the capabilities of future outer planetary science missions, 
and developing the large observatory capabilities to understand the 
Universe. The thrust areas support Space Technology's investment 
strategy to enable future NASA missions while offering crosscutting 
support for the missions and capabilities of commercial and other 
government space sectors. Nevertheless, at a significantly reduced 
fiscal year 2015 funding level, as proposed by the Congress, critical 
content even within these key thrust areas will either run at risk or 
face elimination.
                    human exploration and operations
    Question. As you know, the development of a reliable means of 
repairing and refueling satellites already in orbit could allow the 
U.S. to realize significant cost-savings and ensure the continued 
operation of these satellites for the benefit of civilian and national 
security assets. It is my understanding that the Goddard Space Flight 
Center is proposing to expand their work in this important area. I also 
understand that Goddard is building off of prior investments and 
leveraging industry capabilities.
    Do you believe that in orbit refueling and servicing of satellites 
is an important research effort for NASA to undertake as a stepping-
stone to support human exploration?
    Answer. NASA is refocusing its In-Space Robotic Servicing activity 
to multi-use technology development efforts that could enable multiple 
NASA missions, including servicing potential science satellites, 
servicing government missions in low-Earth orbit, and non-NASA users, 
and provide robotic tools for an Asteroid Redirect Mission, as well 
other applications for use and/or testing on the International Space 
Station (ISS).
    Robotic Refueling Mission phase 2 hardware will be flown to ISS in 
fiscal year 2014. This hardware includes a new tool and task board, 
which will be used to demonstrate additional refueling tasks, including 
robotic operations associated with cryogenic fluid transfer. In-Space 
Servicing is also developing a tool to detect external ammonia leaks on 
ISS. This device will be critical in monitoring and determining leak 
locations on ISS, and serve as generic tool to assist in satellite 
repair.
    Question. Do you believe that NASA's relationships with commercial 
partners could be strengthened through such a program?
    Answer. NASA continues to engage private industry and other 
government agencies to determine their interest in these capabilities.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                    human exploration and operations
    Question. Administrator Bolden, you suggested that NASA's ``total 
investment in the COTS program'' was only $684 million. However, by my 
accounting, the number is closer to $800 million. I have attached a 
copy of the schedule of payments provided by your staff, which supports 
this number. Could you please explain why your ``total investment'' 
number is different than that which is reflected in the attachment?
    Answer. While the original planned amount for the entire Commercial 
Orbital Transportation Services (COTS) effort was $800 million, the 
actual available appropriations were $782 million. The $684 million 
represents the funding paid to the two remaining partners, SpaceX and 
Orbital Sciences, under COTS Space Act Agreements. The total COTS 
program funding paid to date is $781 million, broken out as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
SpaceX...............................................                396
Orbital..............................................                288
                                                      ------------------
      Total COTS Investment in current partner Space                 684
       Act Agreements................................
 
COTS Investment in Terminated Space Act Agreement                     32
 with Rocketplane Kistler (RPK)......................
Total COTS Investment through Commercial Resupply                     18
 Services (CRS)......................................
Total COTS Other Management and Support..............                 47
                                                      ------------------
      Total COTS Program Payments through April 30,                  781
       2014..........................................
------------------------------------------------------------------------

    Question. It is my understanding that at least one of the providers 
participating in Commercial Resupply Services (CRS) has flown different 
variants of their launch vehicle for each mission--some variants being 
more significant than others. Please provide the subcommittee a 
detailed accounting of each vehicle flown by mission and the changes 
made to that vehicle relative to the original qualifying launch 
vehicle. Additionally, the subcommittee requests a detailed description 
of the changes made, if any, from one launch vehicle to the next.
    Answer. Under the Commercial Resupply Services (CRS) contract, a 
total of four flights have flown to the International Space Station 
(ISS) to date. All four flights have successfully berthed with the 
Space Station and delivered all planned cargo. Additionally, all three 
SpaceX CRS flights have successfully returned all planned cargo to 
Earth. The table below outlines the vendor, CRS flight, launch vehicle 
versions, and launch dates.


----------------------------------------------------------------------------------------------------------------
                Vendor                          Flight               Launch Vehicle            Launch Date
----------------------------------------------------------------------------------------------------------------
SpaceX...............................  CRS SpaceX-1...........  Falcon 9 v1.0..........  10/07/2012
SpaceX...............................  CRS SpaceX-2...........  Falcon 9 v1.0..........  03/01/2013
SpaceX...............................  CRS SpaceX-3...........  Falcon 9 v1.1..........  04/18/2014
Orbital..............................  CRS Orbital-1..........  Antares 120............  01/19/2014
----------------------------------------------------------------------------------------------------------------

    For the CRS program, there is not a NASA ``qualification'' of the 
commercial partner launch vehicle in the traditional definition. Each 
company is responsible for all prelaunch qualifications and 
verifications of their launch vehicle and is also responsible for 
determining what launch vehicle is appropriate for the specified 
mission parameters, including expected cargo upmass/downmass (as 
applicable), launch window and rendezvous phasing. The cargo spacecraft 
that berths to the ISS is required to meet a set of interface and 
verification requirements for each mission, which NASA reviews and 
dispositions for each flight. Launch vehicle performance and capability 
were previously demonstrated under the COTS program prior to the CRS 
contract vehicle launches. In addition, the Federal Aviation 
Administration reviews safety and performance data of the launch 
vehicles prior to each flight to ensure public safety and is 
responsible for issuing a license of each vehicle's launch and reentry. 
As NASA does not contractually qualify or verify the commercial partner 
launch vehicles, additional information on these vehicles and their 
version history should be requested from the relevant company.
    Question. I am aware that a number of significant anomalies have 
occurred with CRS launch vehicles, including seawater intrusion, engine 
loss on ascent, and the insertion of a secondary payload in the 
improper orbit just to name a few. What is the probability that such 
significant anomalies will occur with CRS launch vehicles and what 
insight does NASA have in that regard? What risk mitigation efforts are 
underway to ensure that these anomalies are not repeated? What is 
NASA's recourse when such significant anomalies occur; for instance 
what can be done about the loss of or damage to payloads returning from 
the ISS?
    Answer. Launch vehicle development and operation is a technically 
challenging undertaking. Efforts to reduce risks through design 
reviews, testing at component and system levels, and early 
identification of any risks are utilized to preclude anomalies.
    NASA participates in various production and operations contract 
milestones with the vendors to gain insight on both launch vehicle and 
spacecraft, as part of the CRS contract. NASA insight is defined as 
gaining an understanding necessary to knowledgeably assess the risk of 
contractor actions or lack thereof through observation of manufacturing 
or tests, review of documentation, and attendance at meetings and 
reviews.
    The CRS contractor has the lead for anomaly resolution for phases 
of the mission during which they have responsibility. In the event of 
an anomaly during a mission, a contractor-chaired team will determine 
the cause of the anomaly or failure to evaluate all available data in 
order to determine if the mission failure was attributable to the 
vehicle or conditions for which the contractor is expected to control 
or avoid. The appropriate corrective actions necessary to address any 
issues will be determined and coordinated with NASA. NASA is able to 
fully participate in these investigation and proposed mitigation 
implementation. In addition, NASA participates as necessary in any 
issues/anomalies that are identified during production as well.
    As part of determining mission success or failure after each return 
mission, NASA conducts a post-flight assessment of the condition of the 
payloads to determine if their condition meets the agreed to 
requirements. If the return payloads do not meet the requirements or 
are lost, and the mission therefore is only a partial success or a 
failure, NASA withholds a portion, or the entire, final payment for 
that mission.
    Question. Administrator during the Committee's NASA hearing on the 
fiscal year 2014 budget last year, you stated: `` . . . we don't know 
the precise amount, because we don't get, you know, fiscal accounting 
the way that would be required if we were working under a FAR-based 
contract, but they are now working under FAR-based contracts in the 
CCiCap program . . .  We have total insight into everything that 
they're doing, so when we get to ready to roll out the request for 
proposals here this summer, we'll be confident that we know what 
they're doing.'' These comments led me to believe that FAR-based 
contracts would provide greater transparency and oversight than the 
existing Space Act Agreements. However, NASA has stated that it will 
waive significant portions of the FAR contracting requirements under 
the proposed CctCap RFP, including those related to certified cost and 
pricing data. Could you explain how a waiver of these requirements is 
consistent with your previous statements encouraging transparency and 
accountability?
    Answer. NASA did not waive ``significant'' portions of the Federal 
Acquisition Regulation (FAR) contracting requirements under the 
Commercial Crew Transportation Capability (CCtCap) Request for Proposal 
(RFP). NASA modified several standard FAR provisions to better align 
with the contract requirements, which is part of the procurement 
process for any solicitation. NASA approved waivers/deviations for 
several RFP clauses, as permitted by the FAR, because the resultant 
clauses were appropriate and justified for the CCtCap procurement. NASA 
was fully transparent with industry regarding the waivers and 
deviations under CCtCap RFP.
    NASA did not waive any certification requirements for the initial 
award of proposals under CCtCap. FAR 15.403-1 does not allow the 
Government to require Certified Cost or Pricing Data for procurements 
when there is expected to be adequate price competition through 
multiple proposals and price is a significant factor in the evaluation, 
as is the case for CCtCap. As part of the competitive price evaluation, 
the RFP required all offerors to submit data other than cost or pricing 
data to assist the Government in determining price reasonableness. NASA 
did waive FAR 15.403-4(a) and (b)--relating to certified cost or 
pricing data after contract award. This waiver only applies to 
potential contract modifications and task orders in excess of $700,000 
during contract performance (i.e., after the award of the base 
contract). This was done in order to reduce administrative costs 
associated with the certification of cost accounting systems and to 
increase competition. Like the initial contract award process, NASA 
will require contractors to provide data other than certified cost or 
pricing data to assist in price reasonableness determinations for 
future modifications and task orders under the contract.
    In addition, NASA will have significantly greater oversight under 
the CCtCap contract than it had under Space Act agreements, through 
certification of compliance with NASA requirements, inspections, 
anomaly investigation and safety review of hazardous flight operations. 
NASA will have full technical insight into commercial vehicle design 
and performance, and has achieved a head start on this through the 
recently completed first phase of this procurement, the Certification 
Products Contracts.
    Question. How is NASA weighing individual company investment in the 
current round of awards to ensure that this is a public-private 
partnership and not a taxpayer funded development program?
    Answer. CCtCap is a firm fixed price contract and, as such, NASA is 
concerned with the price to the Government and the contractor's ability 
to perform the work at that price. As part of ensuring lifecycle cost 
management, NASA is evaluating the financial resources proposed to meet 
the milestones throughout the contract and how the total investment 
affects performance risk. NASA is not evaluating the magnitude of 
company investment.
    Question. What is the current investment level for each participant 
in Commercial Crew thus far?
    Answer. By the time the Commercial Crew Integrated Capability 
(CCiCap) is completed, NASA's investment in the three rounds of 
Commercial Crew Space Act Agreements (CCDev, CCDev2, and CCiCap) will 
be $1.533 billion. Based on representations by the companies, our 
industry partners will have made an aggregate investment of 
approximately 20 percent of the total investment through the completion 
of the Commercial Crew Integrated Capability (CCiCap) phase. The actual 
aggregate investment of the partners may be higher to the extent that 
industry has absorbed cost growth associated with hardware development 
challenges and schedule delays. A further level of definition regarding 
any company's investment in the Commercial Crew Program would be 
proprietary to that company and is Sensitive But Unclassified 
information.
    NASA has also provided an aggregate $29 million to industry for the 
Certification Products Contracts. The corresponding partner investment 
is unknown, but the partners are believed to have contributed to this 
activity, as the generation of these products has proven to be even 
more significant than we or they anticipated.
    Question. I am concerned about the lack of transparency inherent in 
Space Act Agreements and, in particular, the lack of information NASA 
has regarding the private investment in both the commercial cargo and 
crew program. Does NASA know how much each participant has invested in 
the cargo program or the crew program? Are the companies required to 
disclose their investments as a condition of their contract with NASA?
    Answer. By the time the Commercial Crew Integrated Capability 
(CCiCap) is completed, NASA's investment in the three rounds of 
Commercial Crew Space Act Agreements (CCDev, CCDev2, and CCiCap) will 
be $1.533 billion. Based on representations by the companies, our 
industry partners will have made an aggregate investment of 
approximately 20 percent of the total investment through the completion 
of the Commercial Crew Integrated Capability (CCiCap) phase. The actual 
aggregate investment of the partners may be higher to the extent that 
industry has absorbed cost growth associated with hardware development 
challenges and schedule delays. A further level of definition regarding 
any company's investment in the Commercial Crew Program would be 
proprietary to that company and is Sensitive But Unclassified 
information.
    NASA has also provided an aggregate $29 million to industry for the 
Certification Products Contracts. The corresponding partner investment 
is unknown, but the partners are believed to have contributed to this 
activity, as the generation of these products has proven to be even 
more significant than we or they anticipated.
    The industry partner investment under the COTS development program 
was a higher percentage than the percentage for crew development. For 
the ISS Commercial Resupply Services (CRS) contract, NASA is purchasing 
services under fixed-price contracts. NASA has no insight into any 
partner investments made in delivering that service. Companies have not 
been required to disclose their investments as a condition of award of 
a crew or cargo contract. The CRS, CPC, and pending CCtCap contracts 
are all fixed-price contracts, which do not require the contractor to 
disclose its expenses or investments.
    Question. Is it reasonable that to speculate that these companies 
have invested less than 5 percent of their own money in these ventures? 
If they are not required to disclose their investments, how do you know 
whether they have invested $5 or $5 million?
    Answer. By the time the Commercial Crew Integrated Capability 
(CCiCap) is completed, NASA's investment in the three rounds of 
Commercial Crew Space Act Agreements (CCDev, CCDev2, and CCiCap) will 
be $1.533 billion. Based on representations by the companies, our 
industry partners will have made an aggregate investment of 
approximately 20 percent of the total investment through the completion 
of the Commercial Crew Integrated Capability (CCiCap) phase. The actual 
aggregate investment of the partners may be higher to the extent that 
industry has absorbed cost growth associated with hardware development 
challenges and schedule delays. A further level of definition regarding 
any company's investment in the Commercial Crew Program would be 
proprietary to that company and is Sensitive But Unclassified 
information.
    NASA has also provided an aggregate $29 million to industry for the 
Certification Products Contracts. The corresponding partner investment 
is unknown, but the partners are believed to have contributed to this 
activity, as the generation of these products has proven to be even 
more significant than we or they anticipated.
    The industry partner investment under the COTS development program 
was a higher percentage than the percentage for crew development. For 
the ISS Commercial Resupply Services (CRS) contract, NASA is purchasing 
services under fixed-price contracts. NASA has no insight into any 
partner investments made in delivering that service. Companies have not 
been required to disclose their investments as a condition of award of 
a crew or cargo contract. The CRS, CPC, and pending CCtCap contracts 
are all fixed-price contracts, which do not require the contractor to 
disclose its expenses or investments.
    Question. NASA has a significant number of launches that it intends 
to launch on board Space X rockets over the next several years. In 2014 
alone, NASA ISS resupply missions account for 4 of the 13 missions 
listed on their manifest. However, we are now in May and only 2 of the 
13 missions listed have launched. With only 8 months remaining, they 
will have to launch every 22 days for the rest of the year. This would 
be more launches in 8 months of a Falcon 9 than have been completed 
over the past 3 years. Given the critical nature of resupplying the 
ISS, how is NASA preparing for the possibility that the scheduled 
launches to the ISS by Space X will not occur as scheduled?
    Answer. The remaining two flights planned for fiscal year 2014 are 
planned for July 2014 (Orb-2) and August 2014 (SpX-4). In addition, the 
European Space Agency plans to launch its Automated Transfer Vehicle-5 
this summer. The commercial strategy does not rely on a single flight 
or provider, but if CRS cargo delivery flights fall behind schedule, 
NASA will prioritize the cargo carried on those flights on the basis of 
payload criticality to the maintenance and operation of ISS. Beyond 
meeting these requirements, NASA will first satisfy additional 
requirements associated with NASA utilization missions including NASA-
sponsored Biological and Physical Research, the Human Research Program 
and Technology Development and Demonstration projects necessary to 
NASA's exploration mission. Finally, NASA would work together with the 
Center for the Advancement of Science in Space (CASIS), which manages 
the National Laboratory aspects of the ISS to determine the priority of 
utilization-related cargo, including equipment and samples supporting 
research objectives by organizations other than NASA.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                            science missions
    Question. The National Aeronautics and Space Administration (NASA) 
is identified as a supporting Federal agency for 9 elements of the 
Implementation Plan for the National Strategy for the Arctic Region, 
including:

  --Enhance Arctic Domain Awareness;
  --Develop a framework of observations and modeling to support 
        forecasting and prediction of sea ice;
  --Implement the Pilot Distributed Biological Observatory in the 
        Pacific Arctic;
  --Develop Integrated Ecosystem Research in the Beaufort and Chukchi 
        Seas;
  --Improve Understanding of Glacial Dynamics;
  --Understand Terrestrial Ecosystem Processes;
  --Understand Atmospheric Processes to Improve Climate Predictions;
  --Support a Circumpolar Arctic Observing System; and
  --Integrate Arctic Regional Models.

    Despite this long list of action items, NASA references only two 
Arctic-oriented projects in its fiscal year 2015 Budget Estimates 
document:

  --Operation IceBridge--which consists of 26 science flights from 
        Fairbanks and Greenland to collect data on sea ice, ice sheets 
        and glaciers; and
  --ICESat-2--which will continue assessments of polar ice changes once 
        launched in 2017.

    These are important projects, and I am not going to criticize NASA 
for pursuing good work related to the Arctic. However, as I have been 
with many other Federal agencies I am concerned that the statements 
made in the Administration's Arctic Implementation Plan are not matched 
with resources to support actual work when it comes to NASA. 
Administrator Bolden, could you please provide me with information 
regarding your agency's fiscal year 2015 budget support for the 9 
action items where NASA is identified as a supporting agency?
    Answer. NASA's fiscal year 2015 budget estimates document does not 
cover all of the agency's activities because it was focused on major 
items listed as specific milestones in the strategy. The strategy and 
milestones were derived from the Arctic Research Plan fiscal year 2013-
2017 developed by the Interagency Arctic Research Policy Committee 
(IARPC), in which NASA regularly participates. Apart from our major 
investments in IceBridge and ICESat 2, NASA spends an additional 
approximately $20 million on Arctic research across a range of NASA 
science-based programs, as follows:

  --Cryospheric Sciences: Supporting a diverse suite of studies of 
        Arctic sea and land ice. The sea ice studies are especially 
        focused on the connections of changes in sea ice cover to 
        climate drivers. The land ice studies are especially relevant 
        to estimates of present and future sea level rise.
  --Interdisciplinary Sciences: Supporting studies of the impacts of 
        Arctic change on the global system, and ice-ocean interaction.
  --Making Earth System data records for Use in Research Environments 
        (MEaSUREs): Supporting various studies compiling information on 
        Arctic sea ice, Greenland ice sheet, and North American snow 
        cover.
  --Modeling and Assimilation: Supporting model development for sea ice 
        components of global climate models and ice sheet models 
        relevant to sea level rise.
  --Carbon Cycle: Supporting development of the Arctic Boreal 
        Vulnerability Experiment (ABOVE) campaign, a major study 
        planned for 2015 and beyond to assess the changes occurring in 
        Arctic vegetation.
  --Earth Ventures: Supporting aircraft studies to assess the release 
        of greenhouse gases from the thawing permafrost.

    These funded activities contribute to all of the elements listed 
above, and detail can be provided as desired.
    Question. As Arctic ice continues to diminish and more and more 
nations engage in that region, I have encouraged this Administration to 
lead in the Arctic and dedicate the resources necessary to back up our 
claims of Arctic engagement.
    Administrator Bolden, I am aware that the Canadian Government is 
looking at a new satellite mission that would help maintain satellite 
communications and weather observations in the Arctic region for years 
to come. This comes at a time when our own civil weather satellite 
capability faces an ``unacceptably high'' probability of a gap in 
observations by 2017. The U.S. Navy in its Arctic Roadmap has 
highlighted the importance working with Canada on Arctic communications 
and weather. In addition, a recent GAO report cited that weather 
forecasts over the Arctic needed to be improved.
    While I understand that the National Oceanic and Atmospheric 
Administration (NOAA) is the lead agency for weather satellite 
programs, I would like to know your views on satellite observations 
needed in an increasingly ice-diminished Arctic. Also, could you please 
describe how NASA is engaged with NOAA and the Department of State 
(DOS) to evaluate the benefits that a Canadian communications and 
weather satellite mission would have to the U.S. and our monitoring 
capabilities?
    Answer. Satellite observations of the Arctic region have already 
proven to be important for advancing our understanding of the ongoing 
changes there, as well as enabling the U.S. to plan for the large 
effects that can be expected in the future.
    NASA's current and planned satellite observations provide extensive 
coverage of the Arctic. Most of NASA's satellites are in polar orbits, 
which fly over each pole approximately 15 times per day, gathering data 
routinely during these overpasses and transmitting and processing data 
back on the ground for use by the research and applications 
communities. Planned satellite data such as the ICESat 2 mission 
(launch in 2018) and GRACE Follow On (launch in 2017) will provide 
particularly important measurements of ice sheet topography and mass, 
respectively. NASA coordinates with the Canadian Space Agency and that 
nation's Environment Canada agency, both bilaterally and through 
international coordinating entities such as the Committee on Earth 
Observation Satellites (CEOS) and the Coordinating Group on 
Meteorological Satellites (CGMS); NOAA participates along with NASA in 
both CEOS and CGMS. NASA Earth Science Division and NOAA/National 
Environmental Satellite, Data, and Information Service (NESDIS) 
regularly exchange information on international interactions and 
potential future opportunities in the context of the NASA-NOAA Joint 
Working Group mandated by Section 306 the NASA Authorization Act of 
2005. NASA also regularly participates with the Department of State on 
Arctic-related issues, including those associated with the Arctic 
Council, and in interagency activities such as IARPC and the 
development of the National Arctic Strategy and the associated 
Implementation Plan.
    Although we are aware through CEOS of Canada's interest in 
developing a Polar Communications and Weather (PCW) satellite mission, 
their plans have not reached the stage of maturity at which they are 
presented for detailed discussion among the U.S. Government agencies.
    Question. As an Alaskan, I have an acute interest in the weather 
data provided by the Joint Polar Satellite System (JPSS). The impending 
gap in this critical data and the lack of robustness in the overall 
program is of great concern to the Nation and especially to my 
constituents. Secretary Pritzker addressed the gap in a recent hearing 
with this committee (April 10, 2014) by stating, `` . . . what we're 
trying to do is move JPSS-2 so that there's greater overlap with the 
JPSS-1 program. To do that, we need to have the procurement of the 
instruments, the bus, the ground system, and the launch.''
    As the acquisition agent, what is NASA currently doing to assist 
NOAA in accelerating JPSS-2?
    Answer. NASA and NOAA are assessing options to possibly accelerate 
the JPSS-2 Launch Readiness Date (LRD) from its current baseline of 
first quarter of fiscal year 2022 in order to reduce the probability of 
a gap between JPSS-1 and JPSS-2. NASA is actively working procurement 
actions for the complement of instruments as well as the spacecraft bus 
in order to get all under contract as soon as possible. The schedules 
of the instruments currently drive the JPSS-2 schedule. One instrument 
is already under contract, and final contract negotiations are underway 
for the other instruments. NASA plans to have all JPSS-2 instrument 
contracts definitized by Summer 2014. In addition, NASA plans to 
release the Request for Offer for the JPSS-2 spacecraft bus on schedule 
by the end of the fourth quarter fiscal year 2014. NASA is applying 
lessons learned from the JPSS-1 instruments and spacecraft 
manufacturing, integration and testing phase to the JPSS-2 mission 
planning, which should permit some level of acceleration.

                         CONCLUSION OF HEARINGS

    Senator Mikulski. This subcommittee stands in recess 
subject to the call of the Chair.
    [Whereupon, at 10:30 a.m., Thursday, May 1, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
